<html>
<title> - TRUMP'S WRONG TURN ON CLEAN CARS: THE EFFECTS OF FUEL EFFICIENCY ROLLBACKS ON THE CLIMATE, CAR COMPANIES, AND CALIFORNIA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                 TRUMP'S WRONG TURN ON CLEAN CARS: THE
                  EFFECTS OF FUEL EFFICIENCY ROLLBACKS
                     ON THE CLIMATE, CAR COMPANIES,
                             AND CALIFORNIA

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON ENVIRONMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2019

                               __________

                           Serial No. 116-69

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      


        Available via the World Wide Web: http://www.govinfo.gov
                     http://www.house.oversight.gov
                       http://www.docs.house.gov
                       
                       
                       
                       
                              ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-306 PDF           WASHINGTON : 2019

                     
                       
                       
                       
                       
                   COMMITTEE ON OVERSIGHT AND REFORM

            CAROLYN B. MALONEY, New York, Acting Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Frank Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
             Britteny Jenkins, Subcommittee Staff Director
                     Joshua Zucker, Assistant Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Kelly Armstrong, North Dakota
Alexandria Ocasio-Cortez, New York   Fred Keller, Pennsylvania


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on October 29, 2019.................................     1

                               Witnesses

Panel One
The Honorable Edmund G. Brown, Jr., Former Governor of California
    Oral statement...............................................    10

The Honorable Sheldon Whitehouse, U.S. Senator from Rhode Island
    Oral statement...............................................    11

Panel Two
The Honorable Samuel Liccardo, Mayor of San Jose, California
    Oral statement...............................................    32
Dr. Antonio M. Bento, Professor of Public Policy and Economics, 
  Sol Price School of Public Policy and Department of Economics, 
  University of Southern California
    Oral statement...............................................    34

Dr. Emily Wimberger, Climate Economist, Rhodium Group
    Oral statement...............................................    35

Dr. Marlo Lewis (minority witness), Senior Fellow, Competitive 
  Enterprise Institute
    Oral statement...............................................    37

*Written opening statements, and the written statements for 
  witnesses are available at the U.S. House Repository: https://
  docs.house.gov.

                           Index of Documents

The documents listed below are available at: https://
  docs.house.gov.

* Letter from 17 automakers to President Trump; submitted by 
  Chairman Rouda.
* EPA's Final Determination on Greenhouse Gas Emissions 
  Standards, January 2017; submitted by Chairman Rouda.
* "Flawed analyses of U.S. auto fel economy standards," Science, 
  by Antonio Bento et al.; submitted by Chairman Rouda.
* The American Lung Association's "State of the Air,' report, 
  2019; submitted by Chairman Rouda.


                 TRUMP'S WRONG TURN ON CLEAN CARS: THE

                  EFFECTS OF FUEL EFFICIENCY ROLLBACKS

                     ON THE CLIMATE, CAR COMPANIES,

                             AND CALIFORNIA

                       Tuesday, October 29, 2019

                   House of Representatives
                  Subcommittee on National Security
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
room 2154, Rayburn House Office Building, Hon. Harley Rouda 
presiding.
    Present: Representatives Rouda, Maloney, Tlaib, 
Krishnamoorthi, Speier, DeSaulnier, Gomez, Ocasio-Cortez, 
Comer, Jordan, Gosar, Gibbs, Armstrong, and Keller.
    Also present: Representative Peters, Chu, Eshoo, and Levin.
    Mr. Rouda. The subcommittee will come to order. Without 
objection, the chair is authorized to declare a recess of the 
subcommittee at any time, and, without objection, nonmembers 
are authorized to participate in this hearing. Some of them 
will be coming and going as the day goes on, DeSaulnier, 
Peters, Levin, Eshoo, and Chu being recognized specifically, as 
well as any other who may show up.
    This Committee is here to examine the Trump 
Administration's proposed rollbacks of Federal clean car and 
fuel economy standards and the Administration's announced 
revocation of California's waiver under the Clean Air Act, 
which would remove the state's ability to set more stringent 
tailpipe emission standards.
    I now recognize myself for five minutes to give an opening 
statement.
    Let me start off by expressing our thoughts and prayers 
with the people of California as they battle the destructive 
wildfires that have ravaged our home state, and to the first 
responders who are risking their lives and giving everything 
they have to containing these fires. Thank you from the bottom 
of our hearts. The word ``heroic'' doesn't do enough justice.
    I would also like to say a few words about our friend and 
colleague, Chairman Elijah Cummings, whom we lost on October 
17. Elijah was the pillar of moral authority in this chamber, 
and it was our deep honor and privilege to serve with him, to 
learn from him, and be touched by his passion for and 
commitment to improving the lives of all Americans. That is 
what it is really all about. That is why he served. That is why 
we serve, to make life better for our fellow citizens, to 
ensure that their lives are as long, healthy, happy, 
prosperous, and free as possible. We have lost a giant, and 
this subcommittee will honor his legacy by continuing to fight 
for the things he believed in.
    After the chairman's passing, Majority Leader Hoyer stopped 
by this hearing room and spoke to members of staff about 
Elijah, and he quoted from Ted Kennedy's eulogy for his 
brother, Robert, in 1968. ``My brother need not be idolized or 
enlarged in death beyond what he was in life, but to be 
remembered simply as a good and decent man, who saw wrong and 
tried to right it, saw suffering and tried to heal it, saw war 
and tried to stop it.''
    I cannot think of a better way to express Elijah's life and 
legacy than those words. So for Elijah, I will echo the prayer 
with which Ted Kennedy ended his eulogy: ``Those of us who 
loved him and who take him to his rest today, pray that what he 
was to us and what he has wished for others will someday come 
to pass for all the world.''
    Today, the Environment Subcommittee will examine two recent 
decisions made by the Environmental Protection Agency and the 
National Highway Safety Administration under President Trump. 
First, the Administration has chosen to freeze fuel efficiency 
standards at 2020 levels, rolling back an Obama Administration 
policy that would slowly increase the standards to 54.5 miles 
per gallon by 2025, a policy, by the way, that the Obama 
Administration set after thorough negotiations with automakers.
    These rollbacks of fuel efficiency requirements, known as 
corporate average fuel economy, or CAFE, standards, are, to put 
it quite simply, brazen and irresponsible. The Trump 
Administration is gambling with people's lives here. Let's make 
that clear from the onset.
    Second, the Trump Administration is also actively 
preventing states from protecting their own citizens. Under the 
Clean Air Act of 1970, my home State of California was granted 
a waiver to set its own greenhouse gas emission standards, and 
until this that waiver has never been revoked. For 50 years, 
previous administrations, Democratic and Republican alike, have 
recognized the right of California to protect the health of its 
own residents. California, through a meticulous and democratic 
process, created more stringent emissions requirements, and, 
when the Obama Administration wanted to create a national 
program to limit greenhouse gases and improve fuel efficiency 
in vehicles, California worked with the Federal Government to 
do just that.
    Currently, 13 other states, plus the District of Columbia, 
have followed California's lead by setting more stringent 
emission requirements, recognizing that the particular 
challenge of climate change and air pollution requires decisive 
action. Stricter emission standards not only reduce the main 
cause of global warming but they also encourage automakers to 
develop newer, more efficient vehicles that will save Americans 
money at the pump and improve the health of each and every 
American, regardless of political affiliation.
    It is a win-win for everyone except the fossil fuel 
companies, which, unfortunately for the rest of us, played a 
significant role in the regulatory decisionmaking process at 
EPA and NHTSA, a much bigger role than the car companies did 
prior. Perhaps that is why 17 automakers sent a letter to 
President Trump in June of this year, asking for the 
Administration to work with California to develop a higher 
national fuel efficiency standard, or why, in July, four 
automakers struck their own deal with California regulators to 
get standards up to 51 miles per gallon by 2026.
    I commend those automakers--Ford, Volkswagen, BMW, and 
Honda--that have been courageous enough to look forward to the 
future, that recognize that California is attempting to solve a 
planetary crisis while the Trump Administration sticks its head 
in the sand, that understanding that this is not just about 
climate change but also about America's right to clean air, and 
who have maturely and responsibly worked with California to 
raise mileage standards and reduce greenhouse gas emissions 
slowly over the course of the next several s.
    Unfortunately, not all auto companies have taken this tact, 
and I urge those companies to reconsider their poor decision 
not to comply with California's higher standards. I invite 
those companies to justify their position before my 
subcommittee. Please, come explain to us why you don't believe 
you must play a vital role in solving the climate crisis. 
Explain to us why you don't care enough about the health of 
American citizens to bother to make better, more fuel efficient 
vehicles. And above all, explain to us why you have chosen to 
align yourself with an Administration that is stuck in the 
past.
    We want, we need to move forward. To paraphrase Clarence 
Darrow, ``We know the future is on our side. We are pleading 
for the future.''
    Turning back the clock on progress is not leadership. It is 
colossal failure. Look, we can pretend climate change isn't 
real. We can spend days, months, and years arguing over what or 
who is responsible. But while we are doing that, more and more 
carbon is entering our atmosphere and leaching into our oceans. 
People around the world are being displaced. Public health is 
worsening and natural disasters are getting more intense. 
Californians know this first-hand.
    This past weekend, California Governor Newsom declared a 
statewide emergency, as nearly 200,000 people have fled their 
homes from the massive wildfires that are raging across the 
state. Californians are facing unprecedented fire weather 
conditions this season, in large part due to global warming. 
And in a gruesomely circular fashion, these fires then 
exacerbate the impacts of climate change by releasing huge 
amounts of carbon dioxide and other greenhouse gasses into our 
atmosphere. On and on it goes.
    The situation is simply not sustainable. We cannot go on 
like this. People's lives hang in the balance. We are lucky 
that there are states like California that are willing to do 
their jobs and enact policies designated to mitigate climate 
change and help the American people adapt to its effects. Those 
states are doing the responsible thing. They are problem-
solving, they are governing, and the Trump Administration 
should try following their example for a change.
    Thank you, and I now invite the ranking member of the 
subcommittee, James Comer, to give a five-minute opening 
statement.
    Mr. Comer. Well good morning, and always I thank Chairman 
Rouda for his work on the subcommittee, and I want to welcome 
our distinguished witnesses here today to discuss the Trump 
Administration's Safe Affordable Fuel Efficient Vehicles Rule, 
otherwise known as the SAFE Rule. As my fellow ranking members 
noted at hearings last week, Mr. Chairman, I will note that the 
majority is creating a difficult scheduling conflict for 
members of this subcommittee. On one hand, we have today's 
hearing. On the other, we have a deposition related to the 
majority impeachment of the President, the inquiry taking place 
over in the Capitol, which only certain House members are able 
to attend. I believe the Democrats' impeachment inquiry 
requires our Members' attention, and I hope moving forward we 
can agree to avoid this type of scheduling conflict.
    Moving on to today's topic, President Trump promised the 
American people that his Administration would address and fix 
the current fuel economy greenhouse gas emissions standards. 
The United States needs certainty in its regulations. This 
means that we should adopt one national standard for state fuel 
economy standards, not a patchwork of regulations that differ 
from state to state. By withdrawing California's Federal 
waiver, we are a step closer to one national standard for fuel 
economy and emissions. One national standard provides a 
regulatory certainty that the automotive industry craves, and 
makes the proposed Safe Vehicles rule one step closer to 
becoming a reality.
    The average price of a new vehicle was $39,500 in the first 
half of 2019. That price tag is way too high for a majority of 
Americans. Instead of buying new cars, Americans will continue 
to drive their old cars which have more safety hazards and are 
much less fuel efficient.
    EPA and DOT have been working tirelessly to finalize a rule 
that will save lives and strengthen the economy. The rule will 
reduce the price of a new vehicle, which will, in turn, help 
more Americans purchase newer, cleaner, and safer cars and 
trucks.
    The SAFE rule is good for public safety, good for the 
economy, and good for the environment. The proposed SAFE rule 
will set the correct approach to national fuel economy 
standards and ensure that Americans have access to safer, more 
efficient cars in the future. California should not set the 
standards for the rest of the country. The patchwork of 
regulations that exists hurts everyone in the auto industry, 
from the automakers to the car buyer.
    I stand with the Trump Administration's decision to 
establish one national standard for fuel economy and emissions. 
The proposed SAFE Rule will save lives and promote economic 
growth throughout the country.
    Again, thank you, Mr. Chairman, for today's hearing, and I 
look forward to hearing from our witnesses.
    Mr. Rouda. Thank you.
    Mr. Gosar. Mr. Chairman, I have a point of order.
    Mr. Rouda. Yes.
    Mr. Gosar. Mr. Chairman, pursuant to House Rule XVI, Clause 
4(a)(1), I have a privileged motion. I respectfully ask for us 
to adjourn.
    Mr. Rouda. The motion is tabled.
    Mr. Gosar. No. It is not debatable. It is up for a vote. I 
ask for a recorded vote immediately.
    [Pause.]
    Mr. Rouda. The motion is not debatable. The clerk will call 
the roll.
    [Pause.]
    Mr. Rouda. We will conduct the vote shortly, after it takes 
a little bit of time to get set up.
    Mr. Jordan. Mr. Chairman? Mr. Chairman? Mr. Chairman? Can 
you call the vote? No, can you start to call the vote? You can 
still hold it open, but some of us would like to vote. Oh, 
okay.
    All it takes is a notebook and a pencil and someone to call 
the roll.
    [Pause.]
    Mr. Jordan. Mr. Chairman, I would be happy to--someone, if 
you can call the roll I would be happy to tally it. We have to 
be in a deposition on this unfair partisan impeachment process 
you guys are running.
    [Pause.]
    Mr. Jordan. All we need is a staff member to read the names 
on the nameplate.
    Mr. Rouda. The gentleman will suspend while we wait the 
clerk to do the roll call.
    [Pause.]
    Mr. Jordan. Mr. Chairman, do we have any idea how long it 
takes to get a staff member to sit at a table and call the 
roll? There is testimony happening right now. Lieutenant 
Colonel Vindman is testifying. I would like to be there. But we 
have a motion in front of the committee, appropriately made, 
privileged motion. I have never seen this happen. Call the 
roll. If you want to hold the roll open after we have all 
voted, hold it open. I would like to vote and go back to the 
deposition.
    It is not our fault that your members won't show up. Just 
get a staff member, call the roll. You can read the nameplates, 
right down the list. It is pretty easy.
    If you need a tally sheet from the minority we will be 
happy to provide one.
    [Pause.]
    Mr. Jordan. Mr. Chairman, do you need to know the members 
of your committee? Mr. Rouda, Ms. Hill, Ms. Tlaib, Mr. 
Krishnamoorthi, Ms. Speier, Mr. Gomez, Ms. Ocasio-Cortez. 
Acting Chair Maloney can vote as well. Republicans, Mr. Comer, 
Mr. Gosar, Mr. Gibbs, Mr. Armstrong, Mr. Keller, and myself. 
What is that--8, 14 names. I think I did that in like 30 
seconds. Fourteen names.
    We would be happy to--Mr. Chairman, if it is okay, Mr. 
Chairman, I would like to enter the tally sheet into the record 
and make sure you have that, so we will pass that down for the 
chairman.
    Ms. Tlaib.
    [Off microphone.]
    Mr. Jordan. No, no, you don't cross it off. You have to 
vote. But the chairman won't call the vote.
    Mr. Rouda. We ask that all members suspend until the clerk 
gets here, so we can take the roll call.
    [Pause.]
    Mr. Gosar. Mr. Chairman, you have counsel. That should 
suffice as staff. I ask for the roll call to be given.
    Mr. Jordan. Mr. Chairman, you now have the tally list. You 
have staff in the room. Why can't you call the roll?
    [Pause.]
    Mr. Gosar. It is pretty easy. We have got the names right 
in front of you--James Comer, Paul Gosar, Bob Gibbs, Kelly 
Armstrong, Craig Keller, and Ranking Member Jordan, yourself, 
Harley Rouda, Katie Hill--well, she is not here--Rashid Tlaib, 
Krishnamoorthi, Jackie----
    Ms. Tlaib. Rashida.
    Mr. Gosar. Rashida. Sorry--Jimmy Gomez, and Alexandria 
Ocasio-Cortez. It is that easy. You have staff here. You have 
counsel here. All you have to do is do your job and ask for the 
yeas and nays.
    [Pause.]
    Mr. Jordan. Mr. Chairman, question for the chair. Mr. 
Chairman? This is a process question.
    Mr. Chairman, is there a chance you could call the roll and 
just hold it open? Let us vote. Until you close the vote you 
can keep it open until your members get here. Obviously that is 
what you are attempting to do. But that would allow those of us 
who want to go back and hear Colonel Vindman's testimony in the 
deposition to do that. If you just call the roll, we will vote. 
You hold it open and you can go round up your members wherever 
they may be. But you can hold the vote open as long as you darn 
well want. But this idea that you are making us all wait--now 
what has it been, like 10 minutes?
    Mr. Rouda. No one is making you wait. You are more than 
welcome to leave at any time and go join the deposition.
    Mr. Jordan. No. There is an important motion made by our 
colleague that I am going to vote on.
    [Pause.]
    Mr. Gosar. Yes, I actually think you are now in violation 
of the House Rules, privileged motion. You were supposed to 
bring it up immediately when it is made, by a member of the 
committee. Mr. Gosar made his privileged motion now seven, 
eight minutes ago, and you have not brought it up. That is a 
violation of the rules.
    So let's just bring it up and have the vote, and like I 
said, you can hold the vote open, but you are not allowed to 
postpone the vote, which is what you are doing.
    [Pause.]
    Mr. Gosar. For the record, it has now been 10 minutes and 
we still have members having to stay here to do their due 
diligence in this committee, when they are required down in the 
SCIF.
    [Pause.]
    Mr. Jordan. Ten minutes. Ten minutes on a privileged 
motion.
    [Pause.]
    Mr. Jordan. Found the clerk yet? You guys found the clerk? 
Still looking? Still looking for a staff member and a tally 
sheet? We gave you the tally sheet. I see lot of staff members 
in the room. Lots of staff members I see in the room.
    Mr. Gosar. The gentlewoman is counsel and she--counsel can 
do all of the above.
    Mr. Jordan. The Republican clerk will be glad to take the 
roll. We have one in the room.
    [Pause.]
    Mr. Jordan. Mr. Chairman, under House Rule IX, it talks 
about the integrity of House proceedings also extends to the 
activities of its committees. As chair, you have an obligation 
to take up a privileged motion at the time it is offered. You 
could hold the roll open--you could hold the vote open.
    Mr. Rouda [continuing]. In eight years, the Democratic 
minority has never tried to interrupt a hearing like this, and 
here you are pulling a stunt. This chair----
    Mr. Jordan. It is not a stunt.
    Mr. Rouda [continuing]. is not going to----
    Mr. Jordan. It is a privileged----
    Mr. Rouda [continuing]. take a vote----
    Mr. Jordan [continuing]. Mr. Chair.
    Mr. Rouda [continuing]. until I decide.
    Mr. Jordan. Oh. So you are making the rules up as you go 
along?
    Mr. Rouda. No. I am saying I will decide when----
    Mr. Jordan. You have a privileged motion on the table.
    Mr. Rouda. We are waiting for----
    Mr. Jordan. There was only one course of action.
    Mr. Rouda. Once again----
    Mr. Jordan. You have to take it up.
    Mr. Rouda [continuing]. Mr. Jordan, if you need to be 
somewhere else you should absolutely take the time to go.
    Mr. Jordan. I need to be right here, hoping that actually 
the Democrats will start enforcing the rules of the House. They 
are obviously not doing the proper rules and due process with 
the impeachment proceeding, and it has now been almost 15 
minutes since the gentleman from Arizona made a privileged 
motion----
    Mr. Rouda. I know there is a strong desire on your part----
    Mr. Jordan. You get to call--you get to call----
    Mr. Rouda [continuing]. not to have the fact come to light, 
but this committee will proceed in short order once the staff 
is ready. Thank you.
    Mr. Jordan. Once the staff--I----
    Mr. Gosar. Once again, I want to reiterate, the staff is 
present here. You have counsel here that can do all of the 
above. They are responsible for it as well.
    [Pause.]
    Mr. Jordan. Mr. Comer?
    Ms. Ocasio-Cortez. Mr. Chairman, may I make a comment?
    Mr. Rouda. Yes.
    Ms. Ocasio-Cortez. I am--I would like to do my job, and I 
try not to get out of my job at every opportunity. So given the 
fact that we have convened the former Governor of California 
and Senator Whitehouse here, we are here to talk about the very 
pressing issue of cutting our carbon emissions and saving our 
planet, and we have an entire political party that is trying to 
get out of their job, adjourn this hearing, and I just want to 
know what the reason for such a disrespect of our process would 
potentially be. Do we have a reason for why this hearing is 
trying to be adjourned, or, you know, do we have just like a 
cocktail party?
    Mr. Armstrong. Yes. I have one. I have a real easy one. The 
oil industry is the second-largest industry in my state. My 
constituents expect me to be here. We are running an 
impeachment hearing down in the basement of the Capitol right 
now.
    Ms. Ocasio-Cortez. Wait. So this is about the oil industry, 
or----
    Mr. Armstrong. No. No. No.
    Ms. Ocasio-Cortez [continuing]. the impeachment hearing?
    Mr. Armstrong. It's about the economy of the state of North 
Dakota, and my constituents.
    Ms. Ocasio-Cortez. This is a hearing about California.
    Mr. Armstrong. I want to participate in this hearing, but I 
also feel the need to be in the SCIF, because we are only one 
of three committees that are allowed to be in the room. I can 
do a lot of things. I can't be two places at once. I am 
completely comfortable having this hearing. I would just prefer 
to have it at a time when I can participate in it.
    Ms. Ocasio-Cortez. And this was the conversation that was 
brought up--this could not have been brought up before we 
convened the Senator and Governor? We are doing this when they 
are here?
    Mr. Jordan. We have expressed this last week, about having 
two things going on at the same time. It is not like we haven't 
talked about this. But you guys continue to do hearings at the 
same time there are depositions going on. As the gentleman from 
North Dakota said, we can't be two places at once. You talk 
about wanting to do your job? There is no way to do that when 
you have to be two places at once.
    Mr. Armstrong. And just be clear, there was exactly one 
Democrat in the room when this started.
    Mr. Gosar. And counsel has been present the whole time.
    Mr. Jordan. Seventeen minutes. Still waiting for a 
privileged motion. Seventeen minutes. I have never seen this in 
my time in the House of Representatives.
    [Pause.]
    Mr. Jordan. Mr. Chairman, it is actually not----
    [Pause.]
    Mr. Jordan. Mr. Chairman, found the clerk?
    Voice. I thought the clerk was supposed to be around.
    [Pause.]
    Mr. Jordan. Any clerk yet, Mr. Chairman?
    Mr. Rouda. The clerk is on the way.
    Mr. Jordan. Wow. Imagine that. Imagine that.
    [Pause.]
    Mr. Rouda. Clerk, Mr. Gosar has put a motion on the table 
to adjourn. Will you please take roll call?
    The Clerk. Mr. Rouda?
    Mr. Rouda. No.
    The Clerk. Mr. Rouda votes no.
    Ms. Hill?
    Ms. Tlaib?
    Mr. Gosar. Inquiry, please.
    The Clerk. Ms. Tlaib votes no.
    Mr. Rouda. Please continue with the roll call.
    The Clerk. Mr. Krishnamoorthi?
    Mr. Krishnamoorthi. No.
    The Clerk. Mr. Krishnamoorthi votes no.
    Ms. Speier?
    Ms. Speier. No.
    The Clerk. Ms. Speier votes no.
    Mr. Gomez?
    Mr. Gomez. No.
    The Clerk. Mr. Gomez votes no.
    Ms. Ocasio-Cortez?
    Ms. Ocasio-Cortez. No.
    The Clerk. Ms. Ocasio-Cortez votes no.
    Ms. Maloney?
    Ms. Maloney. No.
    The Clerk. Ms. Maloney votes no.
    Mr. Comer?
    Mr. Comer. Yes.
    The Clerk. Mr. Comer votes yes.
    Mr. Gosar?
    Mr. Gosar. Yes.
    The Clerk. Mr. Gosar votes yes.
    Mr. Gibbs?
    Mr. Gibbs. Yes.
    The Clerk. Mr. Gibbs votes yes.
    Mr. Higgins?
    Mr. Armstrong?
    Mr. Armstrong. Yes.
    The Clerk. Mr. Armstrong votes yes.
    Mr. Jordan?
    Mr. Jordan. Yes.
    The Clerk. Mr. Jordan votes yes.
    Mr. Rouda. Will the clerk report the tally?
    The Clerk. On this vote we have seven noes----
    Mr. Comer. Point of order, Mr. Chairman. We left out a 
member. You all left out a member, Mr. Keller from 
Pennsylvania.
    Mr. Comer. Mr. Higgins is not on the committee.
    The Clerk. Mr. Keller?
    Mr. Keller. Yes.
    The Clerk. Mr. Keller votes yes.
    Mr. Rouda. Is there any other member wishing to vote or 
wishing to change his or her vote? If not, the clerk shall 
report the vote.
    The Clerk. On this vote we have seven noes and six ayes.
    Mr. Rouda. The motion is not agreed to. We will proceed 
with the hearing. And I have to say I am very disappointed in 
these antics.
    I have been in the SCIF room for many of these witness 
depositions. Many of the members that are afforded the ability 
from this committee to go there have not been in many of those 
depositions. The fact that they seem to want to make it an 
issue now clearly shows they care more about process and trying 
to prevent the good work of this committee to do the 
investigative work it is obligated to do, under the 
Constitution, to protect the President at all costs, instead of 
doing their duty, is disappointing. The fact that we have 
several members here that have been to this subcommittee 
meeting for the first time ever is incredibly disappointing.
    But with that we are going to move forward----
    Mr. Gosar. I find it very offensive, Mr. Chairman----
    Mr. Rouda. I welcome the first panel of witnesses, the 
Honorable Edmund G. Jerry Brown, Jr., former Governor of 
California, and the Honorable Sheldon Whitehouse, U.S. Senator 
from Rhode Island. Please stand and raise your right hands and 
I will begin by swearing you in.
    [Witnesses sworn.]
    Mr. Rouda. Let the record show that the witnesses answered 
in the affirmative. Thank you.
    As I am sure both of you know, the microphones are 
sensitive so please speak directly into them. Without 
objection, your written statement will be made part of the 
record. With that, Governor Brown, you are now recognized to 
give an oral presentation of your testimony.

    STATEMENT OF THE HONORABLE EDMUND G. BROWN, JR., FORMER 
                     GOVERNOR OF CALIFORNIA

    Mr. Brown. Thank you. My name is Jerry Brown. I was the 
Governor of California from 1975 to 1983, and from 2011 to 
2019, a period when the very idea of the environment and the 
threats from climate and other sources became very well known.
    I think it is really critical that we are talking about 
climate change. There are a lot of important things going on. 
Impeachment is important, but climate is even more important. 
The most important threat facing the world and America is what 
happens to our weather, our climate, our well-being.
    Now despite what the designers are saying, the seas are 
rising, the icecaps are melting, the diseases are spreading, 
and the fires are burning. In that respect, I would like to 
just make mention of the fires in California. Hundreds of 
thousands of people have been evacuated. There is real terror 
in the lives of hundreds of thousands of people. Homes are 
being destroyed. So this is not just another legislative game 
here. This is life and death stuff, and climate change is 
related to the fires in California. California is burning while 
the deniers make a joke out of the standards that protect us 
all.
    The connection, by the way, with climate change and fires 
is very simple. Climate, warming, dries things out. When trees 
and brush get drier, they burn faster, and they burn further, 
and that devastation is magnified. Climate change is a force 
multiplier, and we are seeing that in California, where our 
fire season is longer and more devastating. It is really 
something, at the very moment when California is burning, 
General Motors jumps on the bandwagon, as Trump's lapdog, to 
join the opposition to undercut California's rules.
    These rules were established under laws created by two of 
the Republicans' most famous leaders, Richard Nixon and Ronald 
Reagan. Reagan was Governor, Nixon was President during the 
Clean Air Act, when California got the right to set its own 
rules. Reagan and Nixon were worried about two standards. They 
recognized that California would have a stricter standard, and 
that's been the rule.
    In more recent times, we have modified our environmental 
rules to cover CO2 and greenhouse gases. Now the fact that we 
have a few automobile companies, not all--Ford and Honda--they 
are on our side. And this is not just a trivial issue. Nothing 
is more important than the future of our climate. You walk 
outside and if the climate is modified, and it will be over the 
next 10, 15, 20, 30 years, it is your kids. It is your 
grandchildren. This is not about me. I am older than all you 
guys. I will be dead. But your kids are going to be alive and 
they are going to face a terrible future. And if you don't face 
the reality and do something about it, you are complicit.
    I want to say something about General Motors. These guys, 
when I was Governor the first time, they were out there trying 
to torpedo our air pollution regulations. Then when I was 
attorney general they tried to sue us to stop our vehicle 
emission standards, and we beat them. We beat them in Vermont. 
We beat them in California. Now they come for the third round, 
and they joined in a shameless effort to increase or protect 
their short-term profits.
    I don't need to remind the President of GM, when the 
Japanese started building smaller, more efficient cars, GM 
didn't get it, and they lost massive sales to foreign car 
owners. The same thing is going to happen. China is not cutting 
back on their standards. Europe is not cutting back. California 
is the way to the future. The combustion car is going the way 
of the dodo bird, and you have got to get with it or get out of 
the way.
    Those standards are reasonable. California has grown 
tremendously. It has gone from 2 trillion to 2.8 trillion in 
eight years, and we have the toughest standards in the western 
hemisphere.
    You can have a plan to fix the environment, to protect our 
health, and make the economy grow at the same time. This is 
important. It is real. Get on the side of science. Get on the 
side of the people. Get on the side of the future.
    Thank you.
    Mr. Rouda. Thank you, Governor Brown.
    Senator Whitehouse, you are now recognized for five minutes 
for your opening statement.

  STATEMENT OF THE HONORABLE SHELDON WHITEHOUSE, U.S. SENATOR 
                       FROM RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. Last October, I 
submitted comments, along with several colleagues, to EPA and 
DOT, chronicling the fossil fuel industry's efforts to hijack 
the fuel standards rulemaking, and I have appended those 
lengthy comments to my testimony.
    First, the background. In the last administration, the auto 
industry agreed to greenhouse gas standards for model years 
2017 through 2005, in an agreement with the state of California 
and the Federal Government. The standards would cut carbon 
pollution from cars and light trucks in half by 2025, saving 
American families more than $1.7 trillion, or $8,000 per car, 
by model year 2025.
    Then President Trump took office. The auto industry sought 
to revisit the standards, apparently for mostly technical 
changes. They deny arguing for a freeze or for outright repeal 
or against the California standards.
    But someone else was watching. While the fuel economy 
standards would have little effect on the number of cars sold, 
they would considerably affect the amount of gasoline sold. 
That $1.7 trillion saved by consumers is lost oil industry 
revenue.
    So the oil industry activated the web of front groups and 
trade associations that is uses to block climate action, trade 
associations like the American Fuel and Petrochemical 
Manufacturers, AFPM, which Big Oil pays to do its political 
dirty work; anodyne-sounding front groups like FreedWorks, the 
Competitive Enterprise Institute, and Americans for Tax Reform, 
that masquerade as public interest groups but serve as 
mouthpieces for the fossil fuel industry.
    To maintain the masquerade, these groups don't disclose 
their funders but all are tied, in various ways, into the 
network run by fossil fuel interests, with a trillion-dollar 
incentive to undo the fuel efficiency standards.
    In March 2018, 11 front groups wrote to then-EPA 
administrator Scott Pruitt, urging him to revoke the California 
waiver. We found that the 11 groups behind the March letter had 
received a minimum of $49 million from fossil fuel interests. I 
stress ``minimum,'' since these groups don't disclose their 
funders. The total is likely far, far h higher.
    A month later, in April 2018, a dozen front groups wrote to 
Pruitt and Secretary of Transportation Chao, thanking them for 
proposing to undo the standards and urging them to go as far as 
possible. The 12 groups behind the April letter had received a 
minimum of $196 million in funding from fossil fuel interests.
    Then in May 2018, senior executives from two front groups 
wrote to President Trump, urging him to roll back the standards 
and revoke the waiver. The two groups behind the May letter had 
received a minimum of $7.7 million from fossil fuel interests.
    The front groups did not limit their effort to letters. 
Americans for Prosperity, a front group at the heart of the 
Koch Industries' political network, launched a national public 
campaign opposing the fuel economy standards. Americans for 
Prosperity also does not disclose its donors, but the Kochs are 
fossil-fuel billionaires.
    Oil industry trade association AFPM sponsored a separate 
campaign on Facebook against the fuel economy standards, and 
oil companies themselves quietly went to work. Disclosure 
reports for 2017 and 2018 reveal that Marathon Petroleum, the 
largest U.S. oil refiner; Valero, the second-largest; and 
Andeavor, the fifth-largest, all lobbied on the standards, as 
did Koch Companies and AFPM.
    Marathon Petroleum pressed particularly hard. We were able 
to obtain a draft letter to NHTSA Deputy Administrator Heidi 
King urging that the standards be weakened. The draft still 
contained the letter's metadata, which showed it was drafted in 
April 2018 by a Marathon in-house lobbyist. We compared the 
Marathon lobbyist's draft to three strikingly similar letters 
sent to the deputy administrator by House members. Applying 
plagiarism software to their letters revealed that, 
respectively, 37 percent, 40 percent, and 80 percent of the 
letters from the Indiana, West Virginia, and Pennsylvania 
delegations tracked the Marathon lobbyist's draft. My office 
now has evidence that AFPM pursued a similar strategy, planting 
arguments with Republican Governors.
    More important, of course, is what we don't know. We have 
incomplete information about the funders of these front groups 
and trade associations. We don't know the substance of 
communications between those front groups and associations and 
their fossil fuel funders. We can't yet determine whether the 
oil companies used these tax-exempt front groups to lobby and 
campaign for this trillion-dollar revenue boost in a way that 
is a violation of the tax-exempt status of the groups. If 
evidence showed that the fossil fuel industry used these groups 
to knowingly lie to the public about the harmful effects of 
fossil fuel's carbon pollution, it would be appropriate for 
Congress to uncover and expose that fraud.
    I hope this committee will initiate a detailed 
investigation examining this network of front groups and trade 
associations, determine who funds them and expose how they 
coordinate with industry.
    Representative Henry Waxman spent years investigating how 
the tobacco industry lied to the public. That work helped put 
an end to those lies. The public was well-served by that 
effort.
    Examining dark-money funding is an obvious start. There is 
no legal privilege preventing disclosure of dark-money funding. 
Congress has every right to investigate a scheme to deceive the 
public. This hearing and the one last week in Representative 
Raskin's subcommittee lay the predicate. You have a powerful 
tool at your disposal in the subpoena. Justice Brandeis 
famously said ``sunlight is the best disinfectant.'' However is 
there more need for disinfection than in the long and sordid 
campaign of falsehood the fossil fuel industry has perpetrated.
    This saga may well not end here. It seems that the auto 
industry realized how it was being played by Marathon and 
others, left that fixed game, and worked out a separate 
agreement with the state of California. This disrupted the 
Marathon scheme, reportedly angering the Administration and 
even the President, and the next thing you know a truly bizarre 
letter emerged from the Justice Department raising antitrust 
concerns against the auto industry for negotiating with 
California.
    One basic principle in antitrust law, founded in the Noerr-
Pennington doctrine and the Constitution's Petition Clause, is 
that industries can combine to lobby and negotiate with 
government. The oil industry combines in one of the most 
elaborate lobbying operations anywhere to pursue its interests 
in government. If the oil industry managed to put the 
Department of Justice up to that letter to the auto industry, 
it adds irony as well as mystery. Whatever the irony, the 
mystery of why such a letter was written, and who was behind 
it, also lends itself to congressional scrutiny.
    Mr. Chairman, too much dirty politics is waged with dark 
money, the secrecy is protected by no privilege, and a little 
sunlight would be very healthy for American democracy. Thank 
you.
    Mr. Rouda. Thank you, Senator Whitehouse, and thank you 
both again for your very compelling testimony. At this time the 
chair recognizes Representative Tlaib for five minutes of 
questioning.
    Ms. Tlaib. Thank you, Mr. Chairman, and let's bring some 
sunlight in. As you all know, I represent 13th District strong 
in the metro Detroit community, where the only oil refinery in 
the state is in my backyard. Chairman Rouda was there, 
literally at a community center. Right behind us was Marathon 
Oil refinery.
    In December 2018, a New York Times investigation found that 
Marathon Petroleum worked with powerful oil and district groups 
in a conservative policy network financed by the Koch brothers 
to lobby the Trump Administration to roll back the car emission 
standards.
    Marathon is no stranger to my residents in Michigan's 13th 
District. It is well-document history of environmental 
violations, even two days ago, impacting southwest Detroit, the 
48217 zip code, Melvindale, and nearby River Rouge and city of 
Ecorse.
    Earlier this year, our local Metro Times reported that 
since 2013, Marathon's Detroit refinery has received 13 
violation notices, and since 2005, the state of Michigan has 
taken legal action against Marathon three times. For decades, 
this refinery has violated the Clean Air Act and its state 
permits, poisoning the air we breathe, causing high rates of 
asthma and cancer rates throughout my district, all while 
getting a slap on the wrist for doing so.
    So, Senator Whitehouse, in your testimony you describe the 
work of the oil industry groups and their communications with 
the Trump Administration. Why do you think the fossil fuel 
lobbyists are in such frequent communication with regulators, 
and is it healthy for our democracy?
    Senator Whitehouse. I think it is perfectly healthy for our 
democracy for interests to be communication with regulators, so 
long as the public has an idea of what is going on. The danger 
is when those conversations descend into darkness, and are done 
secretly and privately, and the danger is particularly worsened 
when we have a campaign finance system that allow big interests 
to spend unlimited amounts of money while obscuring who they 
are, so that the public never has any chance to identify who 
the protagonists are on the political stage.
    To go from unlimited money, which is bad enough, to dark 
money, unlimited money, which is still worse, the next step is 
that a powerful organization that has the ability to spend 
unlimited dark money against the candidate has the ability to 
threaten and promise that candidate in ways that are highly 
corrupting. That is what we really don't understand the depths 
of yet.
    Ms. Tlaib. Absolutely. In the New York Times investigation 
it also reported a call that took place between investors and 
Mr. Heminger, Marathon CEO, which indicated at the rollback 
would increase gasoline usage from 350,000 to 450,000 barrels 
per day.
    Senator Whitehouse, in your opinion, which industry has the 
most to gain by lobbying for the rollback of car emission 
industry?
    Senator Whitehouse. Well, without a doubt it is the 
industry that refines the fuel that would be burned in the 
less-efficient vehicles and the calculation of that as a $1.7 
trillion differential gives a very significant incentive. If 
you were to spend $1.7 billion trying to manipulate regulators 
and Congress, you would still have a 1000-to-1 payback if you 
were that industry.
    Ms. Tlaib. Thank you, Senator. I want to really emphasize, 
a quarter of the world's oil is used to power cars. So when 
cars are more fuel efficient that means they use less gas, and 
when cars use less gas it is not the auto industry that hurts, 
it is the oil companies. Before his resignation from the 
position of administrator of the EPA, Scott Pruitt announced 
that the intention to roll back Obama-era standards requiring 
vehicles to average more than 50 miles per gallon by 2025, that 
this proposed rule to freeze these standards, was developed on 
his watch, that Marathon was a top donor to Mr. Pruitt, and Mr. 
Heminger and Mr. Pruitt were scheduled to meet at least twice 
during this time that the EPA was discussing this.
    So, Senator Whitehouse, do we know what was discussed in 
those meetings between Heminger and Pruitt?
    Senator Whitehouse. No.
    Ms. Tlaib. Beyond meetings with Marathon, do you think that 
there were other meetings taken by Pruitt with Big Oil or other 
front groups, that the American people should be aware of?
    Senator Whitehouse. I think we need a much clearer view of 
exactly what took place in all of this. There are a number of 
mysteries that would be very helpful for this committee to 
explore, and I don't believe exploring those mysteries 
trespasses on any legal privilege.
    Ms. Tlaib. So given that there is so much that we do not 
know about the nature of the communications and relationships 
between the Trump Administration and industry, what information 
or documents do you think would help bring forward potential 
wrong-doing and things that we need to look into?
    Senator Whitehouse. I think there are a great number of 
ways to look, but obviously to follow the dark money flows 
would be a very useful place to look. I would also look at 
anything in Marathon's records that related to the Department 
of Justice letter, because it would not surprise me if there 
were fossil fuel interests that prompted the antitrust letter 
to the auto industry companies, which seems, on its face, to 
both violate basic principles of antitrust law and the internal 
departmental procedures of the Department of Justice for 
proceeding with that kind of investigation.
    Ms. Tlaib. Thank you, Mr. Chairman. I yield the rest of my 
time.
    Mr. Rouda. Thank you. The chair now recognizes 
Representative Comer for five minutes.
    Mr. Comer. Senator Whitehouse, in September you posted 
several tweets alleging that the fossil fuel industry was 
behind the President's new SAFE Rule and other actions related 
to auto emissions, and that automakers weren't interested in 
the Administration's regulatory plans. Is that correct?
    Senator Whitehouse. Not entirely. I think that the auto 
industry was interested in getting what I think would be fair 
to describe as some technical corrections and adjustments to 
the agreement that they had reached with California and the 
Obama Administration. My view is that at that point a third 
party, the oil industry, most prominently Marathon Petroleum, 
engaged behind the scenes in that conversation and ran off with 
that conversation to the point where the auto industry felt 
obliged to enter into separate negotiations with the state of 
California, which we saw----
    Mr. Comer. Okay.
    Senator Whitehouse [continuing]. and announced the results 
of those separate negotiations, because I felt----
    Mr. Comer. Yesterday, as you know, several auto 
manufacturers filed their support of the Administration's 
effort to institute a national standard for emissions with the 
U.S. Court of Appeals for the District of Columbia. This 
appears to signal that large segment of the auto industry are 
in agreement that the regulatory certainty that would come from 
a single national standard is preferable to the one where 
California and any other state can develop their own standards, 
doesn't it?
    Senator Whitehouse. Not necessary. I have not had a chance 
yet to read the motion to intervene. It could very well be that 
the companies want to intervene in order to have a place at the 
table. What their position is going to end up being on fuel 
economy standards and on whether there should be a separate 
state program is something that I am not aware of yet.
    Mr. Comer. Your written statement for today's hearing, 
which was submitted before yesterday's news, I believe, seems 
to imply that the auto industry as a whole is not supportive of 
the Administration's regulatory plan. We now know, of course, 
that, yes, some auto manufacturers have agreed to a deal with 
California, while others support the Administration's efforts 
to develop a single national standard.
    Did yesterday's news make you wish you could change your 
testimony in any way?
    Senator Whitehouse. No.
    Mr. Comer. I will--Senator, would it surprise you to know 
that a member of your staff reached out last night to one of 
the automakers who filed in support of the Administration 
yesterday to state that while you were planning on testifying 
today that all the automakers didn't support revoking 
California's waiver, but that you would now have to change your 
testimony.
    Senator Whitehouse. I am not aware of that.
    Mr. Comer. Mr. Chairman----
    Senator Whitehouse. Nor am I aware of what the position is 
of the automakers at this stage, as of yesterday, other than 
that they, I believe, stand by the agreement that they reached 
with California that would have had stronger fuel efficiency 
standards. And since they reached the agreement with 
California, presumably they are not entirely averse to working 
with states in this area.
    Mr. Comer. Mr. Chairman, I would like to submit, for the 
record, a retracted email with communication between the 
Senator's staff and an automaker, expressing the disappointment 
that the particular automaker has signaled support for the 
President's rule.
    Mr. Comer. I think that one thing that has occurred over 
the past 24 hours is the notion that there are several 
automakers that do support regulatory certainty. We can't have 
an environment where every state has its own emissions plan. 
That is uncertainty to the industry that I think is arguably 
the most important industry in America, the automotive 
industry. I know in my congressional district we don't make any 
cars but we make just about every part for the automotive 
industry.
    So I think it is important that we have one standard. 
Again, I support the President's proposed rule and look forward 
to continued testimony. With that, Mr. Chairman, I yield back.
    Mr. Rouda. The chair now recognizes Mr. Gomez for five 
minutes of questioning.
    Mr. Gomez. Thank you, Mr. Chairman. I want to first thank 
Governor Brown for coming out to Washington, DC. I know when I 
told you I was running for the Xavier Becerra seat, to replace 
him, you said, ``Why would you do that?'' But it has been a 
good experience and we need people back here fighting the fight 
on a lot of these important issues.
    First, on climate change, you have been fighting the fight 
in California for decades, and you have proven that you can win 
against large corporations, people who actually denied the 
science for a long time. We need to get that message here.
    But since I have been here, especially on this committee 
and some other committees, there are members who like to--from 
the other side of the aisle, of course--like to use California 
as just a pinata. If it's an issue that doesn't even deal with 
California, they will find a way to bring California in and say 
how bad we are, and then go back to the topic that they are 
discussing. It is an interesting process that they do.
    But I want to just give you an opportunity to address some 
of these questions. My colleague on the other side of the aisle 
said he think it is preferable for a national standard. Can you 
give us some input on why it is not preferable, or why 
California has taken these actions for so many s and decades, 
when it comes to setting our own standards?
    Mr. Brown. Look, it is perfectly clear there is not just 
one marketplace called America. There is something called 
Planet Earth, the globe, and the biggest car market of all is 
China. China has standards that are tougher than California's, 
and Europe has standards that are equivalent. So this idea that 
you are going to get one standard is a complete canard. There 
are the standards of China, California, and Europe, and then 
there's what Detroit, some of what Detroit wants.
    This is not a new story. The same auto association, 
including General Motors and Chrysler, sued California and 
Vermont on the very same topic that they are now fighting in 
court as of today, and they lost. They lost in Vermont. They 
lost in California.
    But look. Let's stand back and look at the big picture. It 
is not the little hijinks today in this chamber. We are talking 
about the future of your children, your grandchildren, and 
humanity. This is serious stuff. And it is not just Democrats 
or liberals. The National Academy of Science, in Britain, in 
France, in Germany, in Russia, in China, they all agree that 
climate change is occurring, it is human induced, and it is 
damn dangerous, and the parts per million are growing every 
year. This is a crisis that Washington has to wake up to.
    Now I don't know why the Republican Party has chosen a 
flat-earth approach and denies science. This is going to affect 
their kids too, and all I would say is we have a standard, the 
bigger standard called China, and California, by the way, is 
not alone. We have got 14 states, including the District of 
Columbia, that follows our standard. In the lawsuit, you have 
got General Motors against us and Chrysler, but we have 22 
states that are on our side. In fact, our standard, that you 
don't like, you Republicans, it covers 40 percent of America.
    And we know what happened. We have seen this movie before. 
If Detroit wants to ignore the rest of the world they will lose 
market share. We know what happened in the solar collector, 
photovoltaics. The Chinese had nothing. Now they have 85 
percent. The Chinese are going to have 85 percent of the car 
industry if Trump and the oil industry get their way, and it is 
up to you to stop that craziness.
    So let's get a standard, but don't get a stupid standard. 
Get a standard that protects you and your family and the future 
of this world.
    Mr. Gomez. Well, thank you. I know I can just ask one 
question and you will run with it.
    [Laughter.]
    Mr. Gomez. Also I would like to remind people, California, 
we set up our--the California EPA before the national 
government. We set up these standards before the Federal 
Government. So we were actually setting the pace way before 
anybody else in the rest of the country, and that is because of 
your leadership at the local level.
    Do you believe that--what should we do, besides--like how 
do you think we should convince some of the folks here? Because 
in California, on the cap-and-trade program that we expanded, 
Republicans joined us. How did you get them to come on board?
    Mr. Brown. You really want to know how the Republicans came 
on board? I will tell you. Their political consultant said 
Republicans in California were losing popularity, particularly 
with younger people, and their consultant said, ``You need to 
do something on the environment, and we suggest doing something 
on climate change.'' Twelve Republican assemblymen came down to 
meet with me, and we negotiated, and seven of them ultimately 
voted, including one senator.
    So it was politics but it was good politics, because it is 
about the future. So that is why that happened.
    Mr. Gomez. Hopefully the Republicans at the national level 
will get that message, because I agree with you.
    Mr. Brown. Well, this is very odd. Conservatives in Europe 
are on the side of doing something about the climate. It is 
only in America that the Republican Party has adopted, you 
know, a flat-earth kind of approach, and science will prevail. 
Science tells us that climate change is real, it is getting 
worse, and the automobile industry is at least 40 percent of 
carbon emissions.
    So if we just let the auto industry run roughshod over 
America, we will all suffer, and I don't think that is going to 
happen. So one way or the other, Detroit will shape up, if only 
because, in five years, we are going to be buying European and 
Chinese cars because Detroit is just producing gas-guzzlers 
that nobody wants, and that would be a tragedy.
    Mr. Gomez. Thank you so much. I yield back.
    Mr. Rouda. Thank you. The chair now recognizes 
Representative Gibbs for five minutes.
    Mr. Gibbs. Thank you, Chairman. I think it is--the facts 
are that in the last decade or so the greenhouse gas emissions 
from the United States have decreased about 14 percent overall, 
and I believe China is probably the largest emitter of 
greenhouse gasses and other pollutants. China might say they 
have got standards but I wonder if their acts and deeds are the 
same.
    You know, if I was a car manufacturer, any business, they 
need some certainty in the regulations, okay? And if the 
standards, California is higher than the rest of the country, 
that creates a problem for them to manufacture cars that people 
can afford across the country. I believe the SAFE Act, or SAFE 
Rule, would make it so cars stay more affordable than the other 
side of the ledger.
    The question, I guess, here is are we getting people out of 
older cars that are unsafe, not as safe as newer cars, 
obviously, and not as fuel-efficient and better for the 
environment, or are we going to have standards so high, the car 
prices higher, that people have a tendency to keep their older 
vehicle that is not safe?
    So I guess the question is, you know, what is going on in 
California? Are we seeing car sales of the newer vehicles 
rising faster than the rest of the country, or are we seeing 
people sticking with their old vehicles, or do you see a trend 
there?
    Mr. Brown. Well, in California we have 50 percent of the 
electric cars in America.
    Let me just get to the real point here. Climate change is 
real, it is happening, and you and everyone else will recognize 
that, if not today, in two years, five years, 10 years. We have 
to get rid of the combustion engine, period. It has got to go. 
And you can't then sell them to somebody else in another 
country. They are going to----
    Mr. Gibbs. Well, I have got to tell you--I have got to tell 
you.
    Mr. Brown [continuing]. they are going to have to be 
recycled.
    Mr. Gibbs. This is my time, my time. I tell you, in Ohio, 
GM closed the Lordstown plant because nobody wanted to buy the 
Chevy Cruze anymore, and they couldn't make the plant----
    Mr. Brown. General Motors is now making many--hundreds of 
thousands of cars in Mexico because the people make two bucks 
an hour.
    Mr. Gibbs. Well, you ought to sign the USMCA then. The 
Democrats ought to ratify the USMCA so we can level that 
playing field a little bit. That is what we ought to do.
    Mr. Brown. That is one of the reasons that I opposed NAFTA, 
by the way.
    Mr. Gibbs. A question, Governor. Since you have brought up 
climate change so much and the fires out there in California--
--
    Mr. Brown. The fires are burning, and you guys are----
    Mr. Gibbs. I understand.
    Mr. Brown [continuing]. happy in your air-conditioned room 
here, but people in California are scared to death.
    Mr. Gibbs. My question--let me ask my question, and the 
question is, since I am not out there I want to hear what you 
have to say about it. What is the protocol out there? What is 
the best management practices? What is California doing to try 
to, best management practice, to try to prevent these fires? 
Are we managing our forest lands out there and our brush lands, 
or what are we doing?
    Mr. Brown. That is a very good point. Managing our forests 
is quite a challenge, and having all these wires up in the--
that can create sparks and fires, big problem. In the short 
term, the climate issue is a longer-term cause. I recognize 
that. And we do have to do a number of things on preventative 
burns, management, thinning out the forests. We have got to do 
all that. But we are not here just----
    Mr. Gibbs. Well, I just----
    Mr. Brown [continuing]. in the day you have got to think of 
the long-term----
    Mr. Gibbs [continuing]. think California ought to be doing 
that.
    Senator Whitehouse, in your testimony you mentioned the use 
of metadata to determine that portions of the letters sent by 
the House members may have originated from industry lobbyists. 
I have an article from 2016, that shows that you and other 
Senators issued a report which, according to the same type of 
metadata, you described was written by Earth Justice attorney 
working on behalf of Sierra Club. Is it okay for congressional 
documents to be written by an environmental activist, lobbyist, 
because you, you know, challenged that one is written by the 
fossil fuel industry?
    Senator Whitehouse. Well, I am not familiar with what you 
are talking about so I am at a little bit of a factual 
disadvantage with you. But let me say, generally, that I think 
that there is a significant difference between an industry with 
a, in this case, $1.7 trillion-dollar incentive to interfere 
with automobile fuel economy standards and how they go about 
doing their business, with that kind of an incentive behind 
them, than with people who are trying to----
    Mr. Gibbs. Well, I would say after the story was 
published----
    Senator Whitehouse [continuing]. do good things and deal 
with their----
    Mr. Gibbs [continuing]. it was uploaded with different 
metadata. So I don't know the credibility of the story.
    But I will say, for our fossil fuel industry, they have 
been working hard to bring down our emissions. I remember when 
I started driving in the 1970's we got like 12 miles to the 
gallon. Now my Chevy Impala gets about 30 miles to the gallon. 
I want to make sure that my constituents can keep affording to 
buy cars in the future. But if we make the standards so high we 
could actually go backward. Let's have a common-sense 
regulatory certainty so our auto industry and our fossil fuel 
industry can move forward together.
    One of the reasons I decided we had decreased our 
greenhouse gas emissions is because of natural gas, and 
unfortunately a lot of people in this country think natural gas 
is bad, and that is one way to get there and how we do that.
    I am out of time so I yield back.
    Senator Whitehouse. Let's do remember the $8,000 in 
anticipated savings per vehicle from the fuel efficiency 
regulations when we are talking about consumer costs as well.
    Mr. Comer. Mr. Chairman, I would like to withdraw my 
previous unanimous consent request.
    Mr. Gomez.
    [Presiding.] Agreed. Without objection, so ordered.
    Ms. Ocasio-Cortez, you are recognized for five minutes.
    Ms. Ocasio-Cortez. Thank you, Mr. Chairman, and I would be 
remiss if I didn't make note that so many were here to try to 
adjourn this meeting, and now that this hearing is on, you 
know, they didn't need to adjourn this hearing to get out of 
their jobs. I mean, apparently they were fine to walk out of 
this hearing when it actually got to the substance of the 
matter. But I will move on.
    Governor Brown, you were in office when the California Air 
Resources Board set its current tailpipe emission standards. 
Correct?
    Mr. Brown. Yes.
    Ms. Ocasio-Cortez. To clarify for folks who may not be 
aware, the current emission standards for the state of 
California are higher, generally higher than the Federal 
Government's. Correct?
    Mr. Brown. Yes. It has been that way for 50 years.
    Ms. Ocasio-Cortez. So what the Trump Administration is 
effectively trying to do is to force the state to lower its 
standards. Correct?
    Mr. Brown. That is the only purpose - it's to make cars 
more gas-guzzling, less efficient. That is the goal.
    Ms. Ocasio-Cortez. And, you know, I do have to say, I 
represent a community--I represent the Bronx, and we have some 
of the highest rates of childhood asthma in the country. And 
the prime reason for that is because of how much trucking and 
dirty cars are forced and contracted to communities that are 
left behind. You know, when people talk about the cost of a 
dirty car and how it may be more expensive to upgrade to a 
cleaner car, it is important that we understand that the cost 
of a dirty car also includes my nephew's nebulizer. It includes 
medical costs. It includes the dirt and the grime that builds 
up in communities that are left behind.
    But, Governor Brown, how do Californians feel about the 
clean car emission standards set under your Administration as a 
way to combat climate change? What is the public's opinion?
    Mr. Brown. Well, the oil companies, two of them from Texas, 
put a measure on the ballot just before I was elected this last 
time, to try to destroy the California rules, the greenhouse 
gas law, and they lost. They lost by over 20 points. So the 
people of California fully support this.
    By the way, I do want to emphasize your point about 
inhalers. The asthma rates have never been higher, and they are 
clearly connected to truck exhaust and carbon pollutants, and 
we have got to get to zero. California says by 2045 we will be 
at net zero. That is good for your health. And how can you 
argue with that?
    Ms. Ocasio-Cortez. So these cleaner emission standards are 
overwhelmingly popular----
    Mr. Brown. Overwhelmingly popular.
    Ms. Ocasio-Cortez [continuing]. with Californians and the 
state. So I find it quite ironic that Republicans want to 
consistently invoke states' rights to regulate a woman's body 
but apparently that is not good enough to regulate a car. I 
mean, the irony here, and the hypocrisy here is appalling. It 
is absolutely appalling.
    Senator Whitehouse, how do Rhode Islanders feel about the 
Obama-era clean car rules and the impacts of the rollback and 
revocation of California's waiver?
    Senator Whitehouse. Well, Rhode Island is one of the many 
states that followed California. As Governor Brown pointed out, 
there are two groups of states. There aren't different 
regulations in every state. There are two groups of states, and 
a considerable number of us have followed California, and Rhode 
Islanders very much appreciate that we have followed 
California.
    We have considerable air quality concerns due to being a 
downwind state from upwind power plants in the Midwest that 
dump a whole lot of pollutants on us. So we are never going to 
be able to get to where we completely want to be, but by 
handling local pollution, by making sure that cars are more 
efficient rather than less efficient, we have been able to 
answer some of the health concerns that you identified for your 
family.
    Ms. Ocasio-Cortez. Thank you. Thank you so much. I think it 
is important that we, again, we clarify what is the line here? 
You know, is this a states' rights argument or not? What is 
this actually about, because there seems to be zero consistency 
on how we are implementing and determining what standards we 
are choosing to enforce and which standards that we roll back. 
If we care about the true spirit of the states as laboratories 
for policies that we could potentially make and adopt on a 
Federal level, than California, I believe, is fully realizing 
the spirit of that idea. And the idea that we would force a 
state to regress, not advance but to regress, to actively harm 
communities, simply does not seem to make sense.
    With that I yield the rest of my time, Chairman.
    Mr. Gomez. Thank you so much. Now I recognize Mr. 
DeSaulnier for five minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman. Governor Brown, 
Senator Whitehouse, it is delightful to see you here. I want to 
just talk a little bit about having been a member of the 
California Air Resources Board, been appointed by three 
Governors, two Republicans and one Democrat. And the history of 
the Clean Air Act, particularly the California Clean Air Act, 
is a part of that, as Mr. Gomez alluded to, that we had started 
air pollution before the Federal Government. That is why CARB 
was created, an amazing institution that attracts really 
wonderful young people to apply for jobs there.
    But that was--our waiver was based on public health 
analysis and benefits, as a private right of action. We have 
withstood those because of the wonderful people you and other 
Governors have appointed. And just the history of this--
Governor George Deukmejian, a very conservative Republican, as 
you well remember, he passed the zero-emission vehicle mandate, 
which has driven a lot of this technology.
    So I want to talk to both of you about the business model, 
and you alluded to it, Mr. Gomez. California gets 50 percent of 
all the venture capital in the United States. We get more 
investment in California for renewables than the other 49 
states combined. All of those is driving, as you said, Governor 
Brown, the fifth-largest economy in the world, and we are 
transitioning. So as you alluded to, Jeremy Rifkin's latest 
book about the New Green Deal, makes the argument very 
compelling that we are going to be left behind.
    So my colleagues in the fossil fuel industry, and as 
somebody who comes from a county with four of the 13 refineries 
left in California, we need to transition, because as you said, 
our kids are going to be driving Chinese cars if we don't. When 
there is a $25,000 battery-electric car, or a fuel cell, that 
gets over 200 miles range, the world is going to change. And we 
are being told by scientists that we are right on the precipice 
of having that happen.
    So when my colleagues argue about hurting the economy, 
Texas and fossil fuel states will make West Virginia look like 
a small problem when we transition rapidly in the next 10 
years.
    So when it comes to renewables, you signed the latest 
iteration of that, where we went from 20 percent, 25, 30, 33 
percent, and then 50 percent. As we transition to renewables 
and we transition to the mobile fleet, that changes the world 
and it changes our economy. So to the point that you alluded 
to, that the Chinese and the EU are going to leave us behind, 
and this waiver is so important to the American economy, maybe 
you could just go a little bit further in your perspective of 
why it is so important economically. We will win on the facts 
of the legal argument, the science, but what I really worry 
about, this country is going to be left behind if they don't 
follow California's lead.
    Mr. Brown. The California waiver is important. It means 
California can set higher standards. It means that California 
can be a laboratory of energy innovation, and that is exactly 
what we have done. Silicon Valley has done that with respect to 
computers. It is good thing that there is a standard different 
from the national standard, that is higher and more in keeping 
with the future.
    The only way that the Republicans and General Motors and 
Trump can be right if is science is wrong. If the National 
Academies of Science of all the major countries are wrong then 
Trump and the Republicans are right. But they are not wrong. 
The academies have told us the truth--greenhouse gasses are 
rising, the seas are rising, snows are melting, tropical 
diseases are coming north. We have got to do something. It is 
going to happen. I am absolutely certain the Republican Party 
will be on board, whether it be three years, five years, 10 
years. They can't deny science forever. It is a temporary 
deviation that they will retreat from very soon.
    But in the meantime, we have got to take action, because 
all these combustion engines are going to have to be recycled. 
What we are talking about is not just a little waiver rule. We 
need a massive--call it what you want--new deal, fair deal, a 
future deal. We have got to have a President, like Roosevelt, 
who one day said, ``No more private cars. We are going to have 
tanks.'' Okay. Somebody is going to say, ``No more fossil fuel 
cars.'' Now, it is not going to be done in one day, but we have 
got to get going, and the longer we wait, the more expensive it 
is going to be.
    And I want to say, China is not perfect, but they are 
moving in a direction more aggressive than America and more 
aggressive even than California. So we have got to get with the 
program or we are going to go the way of Detroit in the 1970's.
    Mr. DeSaulnier. Senator Whitehouse, just going on back of 
that, and the use of the tobacco industry's analogy and how 
they are using dark money, that is what they have to fight on. 
They can't fight on the science or the economic analysis.
    Senator Whitehouse. Well, to your point about the business 
model, the business model of the electric vehicle is coming in 
right now at the top of the market. These aren't golf carts. 
Tesla is at the top of the market. E-tron is at the top of the 
market. I-PACE is at the top of the market. They are winning 
Car of the Year prizes. The Rivian, an American company, is 
coming in at the top of the market. These are going to be 
superb vehicles that are going to be highly competitive. So 
there is a real danger of just losing the gas-guzzler market.
    The larger issue is if the gas economy collapses in what 
many sovereign banks, led by the Bank of England, are referring 
to as the carbon asset bubble. That is a calamity we would very 
much like to avoid. And finally, with respect to your question 
about dark money, the business model of the United States of 
America has always been that we are a transparent city on a 
hill, that we are the example for other nations. And right now, 
dark money is being very corrosive to our democracy and is 
damaging our status as the city on a hill.
    Mr. DeSaulnier. Thank you. I yield back.
    Mr. Rouda.
    [Presiding.] Thank you. The chair now recognizes 
Congressman Peters for five minutes of questioning.
    Mr. Peters. Thank you very much, Mr. Chairman, for holding 
this hearing.
    I just want to take a moment to reflect on what happened 
here earlier. This Oversight Committee, which I waved onto 
today to participate, is one of the three committees dealing 
with impeachment directly. There is a lot of talk about it. 
Actually, a lot of committees are not dealing with it at all, 
but this is one. So members of the committee have been 
downstairs in the secret, confidential chambers, the SCIF, to 
listen to impeachment testimony, which is part of their job.
    It was the effort of the Republicans to come--bring their 
whole crowd here so that they could shut down this hearing and 
not hear at all from you two gentlemen. Governor Brown, I want 
to thank you for being here, and Senator Whitehouse, I know you 
have other things to do. But they were so interested in making 
sure we couldn't even hear from you that they took the time to 
come away from those impeachment hearings, which they complain 
are secret, to sit and try to shut down this committee.
    It strikes me that in the context of this problem, which we 
describe as the moon shot, the next World War, that it is very 
difficult to do that by with one party. When you said the 
Republican Party will be on board, they will be on board, and 
some of them already are. I think you know in Florida we have a 
lot of colleagues who see that the streets are wedded on sunny 
days. They know what is going on. But the level of effort to 
try to defeat this hearing, even the truth for coming out, I 
think is pretty discouraging.
    I want to just also acknowledge that some of the car 
companies are on board too. We talk about the automobile 
industry as though it is monolithic, but Honda, Ford, 
Volkswagen, and BMW, they are enlightened enough to come on 
board with California to say, listen, we know that to compete, 
to maintain our market share, we need fair rules that pull us 
all long, and I think that deserves to be pointed out too.
    Governor Brown, last time we spoke we were in the Vatican, 
and we were speaking to the Pontifical Academy of Sciences 
about the importance of this issue. I also want to acknowledge 
that in addition to being joined by members of the Committee 
faith we were joined by members of the evangelical faith, who 
know that saving God's creation is an imperative. And recent 
reports from the New York Times and other outlets have 
explained how young evangelicals are leaving the Republican 
Party over values issues. They don't like the separation of 
families, they don't like things like the Muslim ban, and they 
don't like the Republicans, the kind of thing we saw today on 
climate change. So the truth is coming our way.
    But I want to ask one specific thing, because the thing 
that I think you hear often from our colleagues is you can't 
have a clean environment and a prosperous economy. I want you 
to talk a little bit about what we have shown in California 
about that, and also maybe reflect a little bit on your 
training as a Jesuit, as to why this is a moral issue as well 
as an economic issue.
    Mr. Brown. Well, those are two separate issues----
    Mr. Peters. You have got a minute each.
    Mr. Brown [continuing]. and the theological. Let me start 
with the mundane first. Let's understand what an economy is. 
The economy is just a gross measure of whatever is going on. It 
is the measure of transactions that are economically 
significant. You can sell horse and buggies. You can sell gas-
guzzling cars. You can sell electric cars. There are initial 
costs, that is true, that you have to have up-front costs. But 
you can run an economy on solar as well as you can run it on 
oil. The only difference is that oil generates carbon 
emissions, and we know that carbon emissions have to come to a 
halt, at least a net zero. We have got to get there. You may 
have some from medicine and whatever, but California says by 
2045 we are going to be at net zero. I hope that is fast 
enough.
    I don't see how this country is going to get there, or the 
world, but we have got to get there. And when things really get 
bad, people will get going. But then it is going to be a lot 
more expensive.
    So our economy, by the way, in 2010, the unemployment rate 
was over 12 percent. Now it is down to four. The GDP was $2 
trillion. Now it is up to $2.8 trillion, even though we have 
the toughest car regulations, the toughest appliance standards, 
and a cap-and-trade program. That doesn't stop you, because 
innovation and investment can generate the wealth.
    By the way, Detroit did a very good job at building cars in 
the 1970's that people didn't want, and so the Japanese came in 
and grabbed 20, 30 percent of the market share. That is going 
to happen again. Now, I am not saying China has it all right, 
but they do have a strategy to go to electric cars, hydrogen 
cars, and if they put all the money into that and we don't, we 
will be importing foreign cars. That would be a tragedy.
    In terms of the theology, the Pope did say, at the Vatican, 
at that Pontifical Academy meeting, that the web of life, the 
mysterious interconnection of all living things, we are a part 
of the environment. We are not over here and the environment 
over there. We are part of all creation, all the species. If we 
systematically destroy the other species, we destroy ourselves, 
and that is what the Pope is saying. Also at that meeting we 
talked about the effect of health. Health is affected by auto 
exhaust, it is affected by a rising sea, whether it is in 
Bangladesh or New York City. It is happening. It may not happen 
on the time scale of running for election, but it is going to 
happen on the time scale of people living in this room. All I 
can say is wake up. Get responsible. Yes, it is theological. It 
is also economic.
    Mr. Peters. Thank you, Governor. I yield back.
    Mr. Rouda. Thank you. The chair now recognizes 
Congresswoman Eshoo for five minutes of questioning.
    Mr. Eshoo. Thank you, Mr. Chairman, for the legislative 
courtesy of allowing me to waive onto the committee today. I 
came here to welcome both Governor Brown and Senator 
Whitehouse. Thank you for traveling across the country, 
Governor, and one of my all-time favorites from the Senate.
    I want to say to you, Mr. Chairman, that I admire your 
sense of dignity, and that I think that Chairman Elijah 
Cummings would be proud of you and how you conducted yourself 
this morning. You know, this is a place that really should be 
all about enlightenment, and anyone that wants to delay, upset 
a hearing on what is challenging our entire plant, that, in and 
of itself, says something about those that would do it.
    Some observations. First of all, in California the Clean 
Air Act allowed for states to come up with their own plans. In 
another life, when I was on the board of supervisors, I 
represented San Mateo County on the Bay Area Air Quality 
Management District Board. California's Clean Air Act was 
tougher than the Federal Clean Air Act. I remember Henry 
Waxman, when I got to Congress, said, ``How do you know so much 
about this?'' I said, ``Well, this is what we had in 
California. I helped to implement it.''
    And I think it is so important to recognize, in America--
what kinds of choices our country was making. Detroit was 
making automobiles that were the equivalent of driving your 
living room around, and the fuel average was, I don't know, 10, 
15 miles a gallon. I remember my father saying, ``Who is going 
to give--these are comfortable cars,'' until he started saving 
gas at the pump, and he understood how important that was.
    So I think, more than anything else, the two of you are 
speaking about our collective future. We have people that are 
looking in the rear-view mirror and think they see the future. 
And this split between Honda, Ford, VW, BMW, and those that 
weighed in on Monday, those that weighed in on Monday are the 
leftovers of yesteryear. They are the front men, I think, 
Senator Whitehouse, they are the beard for the oil industry. 
That is what is going on, because this is a set of bookends 
between what Governor Brown is saying and your testimony. I 
think it is very clear to me.
    What advice do you have for us in terms of action? Should 
we be doing an amicus brief on this, with, you know, the most 
salient issues in this? Clearly California has the right to set 
its own standards. We have been successful in doing it. And as 
you said, there is a theological case, there is an economic 
case, there is--humankind is on the front lines in this if we 
don't take action and do what we should do. Tell us what you 
recommend that we do?
    Mr. Brown. Well, I would recommend bringing over Chinese 
regulators and European regulators, and asking them, what are 
their standards? Are they what the Republicans want? Are they 
this watered-down Trump national standard or are they more in 
line with California? I think that would be very illuminating, 
and I would invite my Republican friends to interrogate the 
Chinese, and ask them, ``Do you have the biggest auto market in 
the world?'' Yes. ``Are you doing standards that are closer to 
California?'' Yes. Then ask them if they will change their 
minds and listen to Trump, and I doubt it very much. And if 
they are not going to change their mind, the American auto 
industry is in great danger, because the European and Chinese 
market is so important to their survival. They have got to make 
it, and you can't fight city hall. You can't fight the world. 
And the world is not Trump and the world is not General Motors. 
The world is not oil companies. They are important, but they 
are going against----
    Mr. Eshoo. But history--yes, history is going to repeat 
itself, because American automobile manufacturers are going to 
lose market position.
    Mr. Brown. They are.
    Mr. Eshoo. There is no doubt about it. And we are going to 
make fools of ourselves by doing so. But I appreciate your 
recommendation.
    Senator Whitehouse, on the dark money, on the oil industry 
and the nexus, the very important, really chilling nexus that 
you have drawn for us today, what do you recommend?
    Senator Whitehouse. There are two very good avenues for 
Americans to discover what Paul Harvey used to call ``the rest 
of the story,'' because they are not getting the whole story 
right now. One avenue is litigation going forward. As the 
California rule gets litigated, as various other lawsuits 
proceed, there is something wonderful called discovery, where 
you get to get the actual documents from the industry.
    The tobacco industry's campaign of lies fell apart not 
after they lost the cases in court. They fell apart after 
discovery was provided. By the time they lost the cases in 
court, the game was really already over. So discovery, 
discovery, discovery is one very important vehicle.
    The second is you all have gavels. You can get these 
documents yourselves. You can request them, and if the 
companies don't cooperate you can subpoena them. I am aware of 
no legal privilege that protects dark money. It just isn't 
required to be disclosed. But there are some very, very 
interesting questions that could be asked about the behind-the-
scenes, behind the curtains connections that will show America 
the rest of the story.
    Mr. Eshoo. Thank you, Mr. Chairman, again, for allowing me 
to waive on, and thank you, Governor Brown. There is one word 
that has--that is synonymous with the greatness of California--
Brown, your father and yourself. Thank you.
    Mr. Rouda. Thank you. The chair now recognizes Congressman 
Levin for five minutes of questioning.
    Mr. Levin. Thank you, Chair Rouda, for convening this 
hearing today, and I especially appreciate that you have 
invited members not on the Oversight Committee to participate.
    The Trump EPA's efforts to undermine the Federal and state 
status quo on auto emissions are a disaster, and unfortunately 
they are typical for this Administration that is putting 
polluters first. In this case, the EPA's actions are even more 
egregious than usual--that is saying a lot. The transportation 
sector is the Nation's largest source of carbon emissions and 
the standards that the EPA is working to undermine were created 
with the support of industry, labor, environmentalists, and 
many more.
    Governor Brown, I am so grateful for all the work that you 
have done for the state of California, for many, many years, 
and it is great to see you here. As you know, California has a 
long bipartisan history of support for cleaner air and for 
dealing with greenhouse gas emissions. President Reagan, as 
Governor of California, created the California Resources Board. 
President Nixon created the EPA and signed the Clean Air Act 
into law, and it goes on and on, in decades since, in 
California. It is just unfortunate that President Trump and his 
Administration insist on undermining decades of bipartisan 
progress.
    Unfortunately, this has a tangible impact on every 
Californian and on every American. A study from Stanford 
University found that if we don't take substantial action to 
address the climate crisis it will cost the U.S. economy $25 to 
$35 trillion. So there is a lot of talk about the costs of 
action.
    How about, for just a moment, talking about the cost of 
inaction--$25 to $35 trillion. And the impacts will be spread 
around the country. By 2090, the damage to coastal property 
alone will cost $120 billion per year. That will be in places 
like the Gulf Coast. Lost labor productivity, driven by higher 
temperatures, will cost $155 billion per year. That is 
anticipated to hit the South and Midwest the hardest, in states 
like Ohio and Kentucky. And deaths from extreme temperatures 
will cost $140 billion per year, especially in hot places like 
Arizona and in my home of Southern California.
    Governor Brown, in California we have already experienced 
wildfires, made more extreme by the changing climate, and they 
have cost the state's economy a lot of money and tragically 
taken the lives of residents. We are even seeing that today and 
this week. You have called the fires, quote, ``the beginning,'' 
and also, quote, ``only a taste of the horror and the terror 
that will occur in decades.'' Governor, can you expand on these 
comments?
    Mr. Brown. Yes. The horror is that the world that we take 
for granted, and that has allowed civilization to be and to 
flourish, and the species that constitute the web of life to 
flourish, all of that is under threat from a changing climate. 
The fact that we have 7 billion people on the planet, there are 
100 million cars, and then we go to 200 million, and we have 
got coal mines, and all the rest of it, it is changing the 
world. The world, when you had people running around in 
loincloths, with half a billion people, that is one kind of 
world.
    We are, through our technology, creating wonderful 
prosperity, but the dark side is the destructive fallout of our 
technology, and we have got to transform. We have got to change 
it. If we don't, the seas will rise. Well, one thing, 
greenhouses gasses are 405 parts per million right now. That is 
the highest--the last time it was that high, the sea level was 
over 30 feet higher. That means that could happen again. You 
can say goodbye to parts of Florida, parts of Southern 
California, and New York City. This is real.
    Now, I guess the Republicans say, ``Well, don't worry. It 
is not going to happen on my watch.'' I remember a guy from one 
of the utility companies, after a fundraiser for me, he had a 
couple of drinks, and he walked out and he said, ``I hope this 
damn nuclear plant doesn't go off during my watch.'' You know, 
we had all had a few drinks that night and we didn't take it 
too seriously.
    Well, we don't want the climate change to go off on our 
watch, because you can't change the climate. When it is cold 
out here, you can't make it warm. Pretty soon the extreme 
events will be occurring, and who will suffer most? Poor 
people. The rich people will buy their little air-conditioned 
bubble and all the rest of it. But this will exacerbate the 
inequality, exacerbate the migrations of the world, make war 
more likely. It is not pretty.
    The people who do this now, to stop what is right, this 
will be on your conscience. Blood is on your soul here, and I 
hope you wake up, because this is not politics. This is life. 
This is morality. And there is no--I would like to resort to a 
little bit of obscenity here, because it irritates me. This is 
real, and if we are wrong, prove we are wrong, but if we are 
right, get on board.
    Mr. Levin. Governor, I have nothing else to say. I can't 
follow that. I will yield back my time.
    Mr. Rouda. Thank you. The chair now recognizes 
Representative Gomez for one minute.
    Mr. Gomez. Thank you so much, Mr. Chairman. First, Senator, 
you made some very good points regarding the dark money. We had 
some presentations in the Subcommittee on Civil Rights and how 
a lot of these think tanks have been promoting just false 
science to undermine the credibility of trying to deal with 
this important issue.
    Governor Brown, a lot of another attack that my friends on 
the other side of the aisle bring up, they say innovation will 
solve the problem. Innovation, right, like innovation comes out 
of like thin air. Can you really have innovation without need, 
without policy goals, without like--because the Republicans 
always say innovation will solve the goal. Like, you know, 
companies just innovate all the time without other people 
having some kind of impact on their trajectory.
    What are your thoughts about that?
    Mr. Brown. This is the point that a lot of benighted folk 
can't get. Rule, law, can drive innovation. The California Air 
Resources Board has been driving innovation for 50 years, since 
the time of Nixon and Reagan. And the innovation is--well, I 
will give you one example. Fifty percent of the cars in America 
are in California, because of our rules. The more efficient 
light bulbs are now being bought all over America, because of 
the rules.
    Now the market is big and profoundly important, but rules 
can drive innovation. And, yes, innovation, and, yes, 
innovation will occur. But we want to invest in the innovation 
like other countries are. So let's get with it.
    By the way, this is not cheap--this is trillions--and it is 
not going to be done overnight, but we have got to get with it. 
The longer we wait, the more expensive it is going to be, but 
sooner or later we are going to do it. If we wait 30 years, you 
will be building sea walls in Miami and New York City, San 
Francisco, and Santa Monica, and those sea walls--well, you are 
going to build them anyway, but they are going to have to be 
taller and more expensive.
    This money saved. Invest in reducing our carbon emissions 
as close to zero as possible, as soon as possible. You will 
create jobs, you will protect health, and you will not further 
exacerbate the inequality of more pollutants going to poor 
kids.
    Mr. Gomez. And California's budget--balanced?
    Mr. Brown. California's budget--I have to say something. 
California used to have a $27 billion deficit. It now has over 
a $20 billion surplus. We did that.
    Mr. Gomez. So you can protect the environment----
    Mr. Brown. I won't tell you how we did it.
    Mr. Gomez [continuing]. and grow the economy, and then have 
a balanced budget, something that we can't do here at the 
Federal level.
    Mr. Brown. Here is the problem. Look, rules do create 
burdens in the short term. They do. When the car came along, 
the buggy whip business went out of business. You know, it 
didn't work. Where I live is where my grandmother was born. It 
was a stagecoach stop, and a very vibrant hotel. Okay? Why? 
Because horses--you had to get a change of horses to go up the 
hill. When the car came, the stagecoach stopped and went out of 
business. The fossil fuel car is going to go out of business 
too. Let's get with it, proactively, and plan it, so we have a 
transition that is benign and will be harmonious and work for 
all of us.
    Mr. Gomez. Thank you so much. Mr. Chairman, I yield back.
    Mr. Rouda. Thank you. The chair now recognizes myself for 
five minutes of questioning.
    Senator Whitehouse, I want to talk about dark money. You 
pointed out in your testimony about the unbelievable amounts of 
money that come into campaigns from the fossil fuel industry 
and the automobile committees. Is it safe to say that while 
many politicians recognize the science, recognize what needs to 
be done, have failed to take the appropriate actions simply 
because they are receiving dark money and soft money into 
campaigns and issues that they support?
    Senator Whitehouse. I was elected to the Senate in 2006. I 
was sworn in in 2007. In 2007, in 2008, and in 2009, we had 
multiple bipartisan climate bills being worked on in the 
Senate. There was, in fact, bipartisanship, and quietly, I can 
tell you, there still is.
    But in 2010, the Citizens United decision came down, which 
allowed unlimited money into politics, and it took the fossil 
fuel industry and other powerful interests about one second to 
figure out how to make that unlimited money unlimited dark 
money. That gave them two powers--one, the power to actually 
spend it, either for people, shoring them up, or against them, 
attacking them, particularly taking them out in primaries, as 
your former colleague, Bob Inglis, experienced. It also allowed 
them to make threats and promises that they could never have 
made before, and that threat or that promise is never going to 
be public, and that is the danger.
    As much as the spending of the money is a danger, as much 
as the hiding of the hand who is spending it is a danger, the 
threat, which is always going to be secret, is probably the 
most corrupting danger of all.
    Mr. Rouda. Right. Citizens United, which recognized that 
corporations are people too, I often ask people how many folks 
out there have ever held hands with a corporation or made out 
with a corporation, and you would be surprised. I haven't met 
any that have met that definition.
    Let's move a little bit to standards. Governor Brown, you 
talked about the standards in California being followed by 
Europe and Canada, I believe, as well. Different standards in 
China. And what is interesting, we are talking here about 
California standards but it is not just California standards. 
Thirteen states and the District of Columbia follow these 
standards, which represents well over a third of the population 
of the United States. We are talking major metropolitan areas 
that would be directly impacted by the rollback of these 
regulation and a substantial increase in their air pollution.
    So I just want to fair warn the good people of Denver and 
Hartford and Wilmington and the District of Columbia and 
Baltimore and Boston and Newark and New York; Portland, Maine; 
Portland, Oregon; Philadelphia; Providence; Burlington; and 
Seattle, and many, many more, get ready for a lot more dirty 
air due to the Trump Administration and the Republicans who 
support this rollback.
    But as we know, the air doesn't stay in those cities, does 
it, Governor?
    Mr. Brown. No. It spreads.
    Mr. Rouda. That is right.
    Mr. Brown. It spreads all over, and that is why this is a 
health measure and it is also an equality measure, because poor 
people are getting the biggest pollutants, and that is an 
environmental justice issue.
    Mr. Rouda. This narrative that there should be one standard 
is false on its face, by the sheer fact that there are multiple 
standards around the world, all of these auto manufacturers are 
delivering cars around the world. Is that correct?
    Mr. Brown. Yes, and there is one point--I want to make it 
very clear. The electric car, the hydrogen car, or you might 
generally say zero-emissions vehicles, is the wave of the 
future. When Volkswagen came in to pay their big fine, because 
of that diesel scandal, the managing director of Volkswagen sat 
in my office in Sacramento and said in seven years the electric 
car would out-compete the fossil fuel car. Well, that is 
probably four or five years from now.
    So bring in the Chinese. Bring in the European Union. Find 
out what their standard is. If the Trump standard is the word 
standard, well we probably have to go with it, but it isn't. 
And California is not an outlier. California is aligned with 
more people, more car buyers, than General Motors and Mr. 
Trump. So let's get with it. I think it is--I think you should 
hold a hearing and find out what is the standard for the most 
cars? I think the Trump standard is a deviant standard, a 
minority standard, and a standard that cannot stand.
    Mr. Rouda. Senator Whitehouse and Governor Brown, I can't 
thank you enough for your time here today. I greatly appreciate 
it. I also apologize for the delay that we had to deal with.
    As we are switching witnesses out, please be aware that you 
may receive additional written questions for the hearing 
record, and we would appreciate your prompt and thorough 
response.
    Before we take a short recess to switch people out, I would 
just like to share a quote with you from Winston Churchill. 
``If we open a quarrel between past and present, we shall find 
that we have lost the future.''
    Thank you again, gentlemen, for being here.
    Senator Whitehouse. Thank you, Chairman. Thank you to the 
ranking member.
    [Pause.]
    Mr. Rouda. We now welcome our second panel of witnesses, 
and I appreciate your patience in getting to this point. It 
took a little bit longer than expected but it is wonderful to 
have all of you here.
    We do have here the Honorable Samuel Liccardo, mayor of San 
Jose, California; Dr. Antonio Bento, Professor of Public Policy 
and Economics, Sol Price School of Public Policy and Department 
of Economics, University of Southern California; Dr. Emily 
Wimberger, Climate Economist, Rhodium Group; and Dr. Marlo 
Lewis, Senior Fellow, Competitive Enterprise Institute.
    If you could all please stand.
    [Witnesses sworn.]
    Mr. Rouda. Please sit. Let the record reflect that the 
witnesses answered in the affirmative.
    As I mentioned earlier, the microphones are very sensitive, 
so when you speak into it, first of all you have got to turn it 
on, and then, second, have the microphone very close to 
yourself.
    Without objection, your written statements will be made 
part of the record. With that, Mayor Liccardo, you are now 
recognized to give an oral presentation of your testimony for 
five minutes.

 STATEMENT OF THE HONORABLE SAMUEL LICCARDO, MAYOR, SAN JOSE, 
                           CALIFORNIA

    Mr. Liccardo. Thank you, Mr. Chairman, and ranking member. 
Thank you for having me here, and to the distinguished members 
of this subcommittee for considering my testimony.
    As the mayor of the city of San Jose?, I serve 1.1 million 
residents in America's 10th largest city. In San Jose?, and 
throughout our Silicon Valley, we are in the future business. 
In the words of the great playwright and San Jose?an Luis 
Valdez, ``The future belongs to those who can imagine it.''
    For a half-century, the California waiver has enabled 
Silicon Valley, and 130 million Americans in 14 states, to 
imagine a future different from the reality of deadly smog that 
choked Californians for decades. A Republican Governor, Ronald 
Reagan, signed legislation forming the Air Resources Board in 
1967, and created emission standards that survive Federal 
preemption because a Republican President, Richard Nixon, 
signed the 1970 amendments of the Clean Air Act into law.
    I evoke this history because amid our too-familiar partisan 
divide on matters of the environment, and perhaps too much 
else, we should remember that there is much about which we all 
can agree. Whether we live in red or blue states, we should all 
be concerned about what I call the three B's: breaths, 
breakthroughs, and Benjamins. That is, revoking the California 
waiver will pollute our air, undermine our technological 
progress, and cost us money.
    First, our breaths. As I grew up in the verdant Santa Clara 
Valley in the 1970's, I recall ``spare the air'' days when smog 
became so bad my teachers wouldn't allow us to go outside to 
play. Since then, California's pioneering regulatory efforts 
spurred the adoption of pollution control technologies, such as 
the catalytic converter, that have reduced the emissions 
profiles of cars between 75 and 99 percent, statewide, despite 
a doubling of our population and quadrupling of our vehicle 
use. This has saved nearly 29,000 premature deaths a year.
    Yet we still have much more work to do. The San Francisco 
Bay Area still exceeds Federal standards for ozone and fine 
particulates, which are responsible for approximately 2,500 
premature deaths each year in my region, and wildfires and 
warming temperatures will only exacerbate this problem. The 
situation appears even worse in Southern California, where 
millions living in the San Joaquin Valley and Los Angeles air 
basins currently live under what is known as ``severe non-
attainment'' conditions for ozone.
    Second, the breakthroughs. Our ability to continue our 
progress, critically depends on growing adoption of technology, 
particularly in further development of zero-emission vehicles 
and the generation of renewable power. Sensible environmental 
regulation has helped to prod many of Silicon Valley's 
breakthroughs in green tech, whether Tesla's cars and 
batteries, Proterra's electric busses, SunPower's hyper-
efficient solar panels, or ChargePoint's electric charging 
infrastructure. Lest you fear that California's environmental 
regulations impede growth, my own San Jose? metro area has a 
2.2 percent unemployment rate, and the highest per-capita GDP 
of any large metro in the Nation.
    More importantly, advances in green tech breed jobs 
throughout the Nation. Tesla makes batteries in Nevada and 
solar panels in Buffalo. Proterra manufactures buses in South 
Carolina. The Chevy Volt that I drive was assembled in Detroit 
and Baltimore. Yet researchers at the Rhodium Group--and I am 
glad we have one here--estimated that revoking the California 
waiver will reduce zero-emission vehicle sales by 78 percentage 
points by 2035, or about 12 million fewer zero-emission 
vehicles on the road.
    Finally, there are the Benjamins. All of us, Republican and 
Democrat, agree on the benefits of saving our citizens money, 
and inefficient vehicles, costs our drivers more to fill up. 
With the Administration's actions, consumers may pay an extra 
$2.3 billion by 2030 in my own Bay Area, while Consumer Reports 
places the estimate nationally at $460 billion, the equivalent 
of a tax on every vehicle of $3,300 per vehicle. While some 
argue that greater fuel efficiency will cost car buyers of new 
automobiles at the dealership, that same technology will save 
drivers three times more money at the pump.
    Breaths, breakthroughs, and Benjamins should persuade all 
of us of the foolhardiness of weakening emission standards, but 
the scientific consensus confirms that doing so will also more 
deeply imperil our planet, as you have certainly heard. The 
tailpipe remains the greatest source of our Nation's greenhouse 
gas emissions, particularly in sprawling, suburban cities like 
San Jose?, where 63 percent of our GHG emissions come from 
transportation. California's standards helped to reduce these 
emissions, both by improving fuel efficiency, and by 
incentivizing the purchase of electric vehicles.
    The San Jose? metro has higher electric vehicle adoption 
than any other U.S. city, and 80 percent of the electricity 
supplying our grid and charging our electric vehicles is 
greenhouse gas-free. San Jose? is reducing its transportation-
related greenhouse gas emissions, but we have a long way to go 
to meet the Paris goals. In the words of the esteemed 
philosopher, Kermit the Frog, ``It is not easy being green,'' 
and the Federal Government shouldn't make it any harder.
    Thank you, Mr. Chairman.
    Mr. Rouda. Thank you, Mayor Liccardo.
    Dr. Bento, you are recognized for up to five minutes for 
your opening statement.

 STATEMENT OF ANTONIO M. BENTO, PROFESSOR OF PUBLIC POLICY AND 
ECONOMICS, SOL PRICE SCHOOL OF PUBLIC POLICY AND DEPARTMENT OF 
          ECONOMICS, UNIVERSITY OF SOUTHERN CALIFORNIA

    Mr. Bento. Thank you, Chair Rouda, Ranking Member Comer, 
and distinguished members of the subcommittee, for giving me 
the opportunity to testify on this important matter today.
    For the past two decades, I have written on topics related 
to the design of climate change mitigation policies, and 
examined, for the most part, the efficiency, distributional, 
and environmental impacts of a variety of policies, including 
the fuel economy standards.
    Directly related to today's hearing is a recent study 
published in Science magazine, ``Flawed analyses of U.S. auto 
fuel economy standards,'' that I have co-authored with a group 
of distinguished scholars last December, immediately following 
the Administration's proposal to roll back the Clean Car 
Standards.
    The punchline is actually fairly simple. To the best of my 
knowledge, the 2018 Notice of Proposed Rulemaking relied on 
models that have fundamental flows and inconsistencies, are at 
odds with basic economic theory and empirical studies, and for 
the most part, the analysis is misleading and doesn't improve 
on the estimates of the costs and benefits of clean car 
standards beyond those of the 2016 analysis.
    In sum, to the best of my knowledge, given the substantial 
departure from a comprehensive protocol for benefit-cost 
analysis, my overall conclusion is that the rollback of the 
clean car standards will not only not produce any welfare 
gains, but instead would result in rather serious, unintended 
effects. These include increases of greenhouse gas emissions; 
increases in local air pollution; a de-facto penalty on 
automakers who have been leaders in technological innovation. 
And, of course, many of these impacts, in particular those 
related to the deterioration of air quality, will be felt in 
California, especially in Southern California, in the Los 
Angeles metropolitan area, with severe health impacts.
    Let me now get into some of the details. When we started 
the study in the Science paper, part of the motivation was the 
fact that there were absurd differences in the cost and 
benefits calculations for the 2022 and 2025 standards, as 
calculated in the 2018 NPRM, in relation to the 2016 analysis.
    Let me be specific. For the fuel economy standard, for 
example, the 2016 review found a net benefit of $87.6 billion, 
while the 2018 analysis, while the 2018 analysis, under the 
Trump Administration, for the exact same standards, now finds a 
loss of $176.6 billion. Now, one should note that these are 
non-trivial differences.
    It is important for us to ask the question, what explains 
these major differences? In my testimony, I alluded to what I 
would call misguided parameter choices, including, in 
particular, the scaling down of the social costs of carbon from 
$48 per ton to $7 per ton. The argument used by the Trump 
Administration was that we should only account for the domestic 
benefits of reducing greenhouse gas emissions. However, and to 
the best of my knowledge, there is really no scientific reasons 
to make these parameter choices.
    Now, in addition to incorrect parameter values, there are 
fundamental flaws in the modeling exercise conducted by NHTSA 
and the EPA, and those relate to the integration of the new and 
used car markets. Of course, the integration of those markets 
are very important, because in response to standards, 
individuals may substitute toward user vehicles. Therefore, the 
modeling of the interactions of the two markets is first order, 
and, of course, it determines not only the projection of the 
total fleet size but also the resulting prices of vehicles, as 
well as all the external costs, including safety, greenhouse 
gas emissions, and energy security.
    Now in our Science paper we actually noted that when we 
correct for all those flaws, we demonstrated that at least $112 
billion was disregarded in the 2018 analysis. Further, for the 
rollback to have negative effects, one only needs to reduce the 
2018 technological costs by 26 percent. Now the interesting 
fact is that this is still double the technology costs under 
the 2016 analysis.
    So, in conclusion, as far as I can tell, there are no 
economic reasons to justify the proposed rollback. Thank you, 
Chairman.
    Mr. Rouda. Thank you, Dr. Bento.
    The chair now recognizes Dr. Wimberger for five minutes of 
opening testimony.

 STATEMENT OF EMILY WIMBERGER, CLIMATE ECONOMIST, RHODIUM GROUP

    Ms. Wimberger. Thank you Chair, Ranking Member, and 
distinguished members of the subcommittee. Thank you for 
sticking around. My name is Emily Wimberger, and I am economist 
at Rhodium Group, which is an independent firm whose research 
supports decisionmakers in the public, corporate, and nonprofit 
sectors. Prior to joining Rhodium, I was the chief economist at 
the California Air Resources Board. Thank you for allowing me 
to testify today.
    To understand the impact of revoking the California waiver, 
I will first start by discussing EPA's 2018 proposal to freeze 
greenhouse gas emissions and CAFE standards, as have been 
discussed previously, at 2020 levels, through 2025.
    In May of last year, Rhodium estimated the impact of this 
proposal in an analysis based on our annual Taking Stock 
Report, which is an independent assessment of U.S. greenhouse 
gas emissions and progress made toward achieving the country's 
climate goals. The analysis found that freezing standards at 
2020 levels would increase U.S. oil consumption by 252 to 
881,000 barrels per day in 2035, and that purchasing this oil 
would cost drivers an additional $193 to $246 billion between 
2018 and 2035.
    What does this mean in terms of emissions? Well, by 2035, 
U.S. energy-related carbon emissions will be 32 to 114 million 
metric tons higher if CAFE and greenhouse gas emission 
standards are frozen at 2020 levels. For context, this 
represents about two to six percent of total transportation 
emissions in 2018 in the U.S.
    Now on to the waiver. In September, the Trump 
Administration announced that it was evoking California's 
waiver which allows a state to set its own standards for new 
motor vehicles. The specific waiver now under fire was issued 
by EPA in 2013, and outlined greenhouse gas standards for model 
years 2017 through 2025, as well as amendments to the zero-
emission vehicle, or ZEV, regulation, that requires auto 
manufacturers to offer a specific number of zero-emission 
vehicles for sale.
    Section 177 of the Clean Air Act allows other states to 
adopt California's standards as their own. As we have discussed 
earlier, to date, 13 states and the District of Columbia, home 
to roughly 30 percent of U.S. auto sales, have adopted all or 
part of California's regulations. So the impact of revoking 
California's waiver goes well beyond the Golden State.
    To understand the potential of revoking the waiver, earlier 
this month Rhodium Group updated our May 2018 analysis to 
capture the impact of revoking the waiver and ending California 
and S. 177 states' ability to set ZEV sales requirements for 
automakers. Relative to the existing standards, we estimated 
that when layered on top of freezing the CAFE and greenhouse 
gas emissions standards at 2020 levels, that revoking the 
waiver will lead to 12 to 14 million fewer ZEVs on the road by 
2035. In our modeling, roughly three-quarters of the ZEV sales 
lost are attributed to the weaker fuel economy and greenhouse 
gas emission standards nationwide, while the remainder is due 
to the rollback of the ZEV programs in California and S. 177 
states.
    Our estimates also show that revoking the California waiver 
will increase greenhouse gas emissions. From 2020 to 2035, we 
estimate that rolling back the greenhouse gas and CAFE 
standards and revoking the California waiver could increase 
emissions by over a gigaton, a very large number.
    So I think there are really three main impacts to revoking 
the California waiver. First, it creates uncertainty for 
automakers as to which greenhouse gas standards will be in 
force in the coming years. In September, California, along with 
22 other states and three cities, filed a Federal lawsuit 
against the Trump Administration, challenging the decision to 
revoke the waiver.
    At the same time, California is embroiled with the EPA and 
Justice Department over the state's discussions with automakers 
about voluntary actions that could circumvent the proposed 
rollback. And just yesterday, another group of automakers 
further escalated this fight, siding with the Trump 
Administration. I think we are in for quite the lengthy legal 
battle.
    Second, as I stated, revoking the California waiver could 
have a meaningful impact on the U.S.'s ability to reduce 
greenhouse gas emissions in line with the goals of the Paris 
agreement. As outlined by our analysis, rolling back the fuel 
economy and greenhouse gas emission standards and revoking the 
waiver could result in up to 14 million fewer ZEVs on the road 
by 2035, and an increase in emissions over a gigaton, from 2020 
to 2035.
    Last, and most importantly, revoking the California waiver 
will adversely impact air quality in areas of the country that 
do not currently meet Federal health-based air quality 
standards. In California, where nearly 20 million people live 
in extreme non-attainment areas and suffer from unreasonably 
high rates of asthma and cardiopulmonary disease, the waiver is 
a critical component to the state's ability to meet Federal 
standards. Revoking the California waiver will put vulnerable 
Americans at increased health risk at a time when the impacts 
of climate change are exacerbating air quality challenges.
    Thank you.
    Mr. Rouda. Thank you, Dr. Wimberger.
    Dr. Lewis, you are now recognized for five minutes for 
opening testimony.

STATEMENT OF MARLO LEWIS, SENIOR FELLOW, COMPETITIVE ENTERPRISE 
                           INSTITUTE

    Mr. Lewis. Thank you very much, Mr. Chairman, Ranking 
Member, and distinguished members of the committee. I am Marlo 
Lewis and I am testifying today on behalf of the Competitive 
Enterprise Institute.
    About one month after the SAFE Rule was proposed, the 
Washington Post ran an expose claiming, or insinuating, through 
the mouths of experts, that the rule is a plan to doom humanity 
to a future of planetary ruin, and I quote from it. ``Last 
month, deep in a 500-page draft environmental impact statement, 
the Trump Administration made a startling assumption. On its 
present course, the planet will warm a disastrous four degrees 
Celsius by the end of the century,'' unquote.
    Actually, there was nothing startling about that. Four 
degrees of warming is what you get when you run EPA's climate 
policy model, called MAGICC, with an assumed climate 
sensitivity of three degrees Celsius, and a blend of the U.N. 
Climate Panel's two higher emissions scenarios, called RCP6 and 
RCP8.5. With minor technical updates, the Trump document simply 
used the same methodology as the Obama Administration to model 
the climate effects of its standards. It was necessary to do it 
this way in order to have a genuine apples-to-apples comparison 
between the Trump policies and the SAFE Rule.
    What the Trump analysis actually showed is that replacing 
the Obama mileage standards with the SAFE Rule would have 
vanishingly small impacts on greenhouse gas emissions, global 
temperatures, and sea level rise. Specifically, compared to the 
Obama standards, the SAFE Rule would add an extra three-
thousandths of one degree Celsius to global average 
temperature, and six millimeters to sea level rise in 2100. 
Three-thousands of one degree is 27 times smaller than NOAA's 
margin of error for measuring changes in global average 
temperature.
    So the additional warming from the SAFE Rule would 
literally be undetectable. That miniscule warming increment 
would make no practical difference to weather patterns, coastal 
flooding, polar bear populations, or any other environmental 
condition that people care about. In short, the policy change 
affected by the SAFE Rule is climatologically irrelevant.
    What the Post did not mention is the Department of 
Transportation's estimates that the SAFE Rule would avoid $250 
billion in auto industry compliance costs, $190 billion in auto 
fatalities and injuries, $2,340 in average higher vehicle costs 
in 2025, and I quite agree with Mr. Bento that modeling of this 
sort is always very dubious. However, if the SAFE Rule achieves 
only 10 percent of those benefits, or just makes new cars more 
affordable to low-and middle-income households, the rulemakes 
good sense, for two reasons. First, new cars are safer, 
cleaner, and more fuel efficient than older vehicles. Second, 
as just discussed, sticking with the Obama standards would have 
no discernable climate benefits.
    Most of my written testimony deals with the SAFE Rule's 
preemption of California standards. To briefly summarize, the 
Nation's fuel economy statute, the Energy Policy Conservation 
Act, prohibits states from adopting or enforcing laws or 
regulations related to fuel economy. California's standards are 
directly and substantially related to fuel economy. 
Consequently, the SAFE Rule voids the standards, and, more 
importantly, it returns California to its pre-2009 status as a 
stakeholder, rather than a decisionmaker in fuel economy 
regulation. That is a big institutional reform and it will help 
ensure that EPA and the Department of Transportation, going 
forward, give due consideration to the potential adverse 
impacts of fuel economy standards on vehicle affordability, 
consumer choice, and occupant safety.
    Thank you very much.
    Mr. Rouda. Thank you, Dr. Lewis. The chair now recognizes 
Congresswoman Tlaib for five minutes of questioning.
    Ms. Tlaib. Thank you, Mr. Chairman. Thank you all so much 
for being here. Toxic chemicals in the air don't care if you 
are a Republican or a Democrat. They affect our ability to 
breath regardless of our politics. The human body needs clean 
air, clean water to survive, regardless of who you voted for in 
the last election. So every person, regardless of their party 
affiliation or political participation, wants to live in a 
clean environment that doesn't endanger their health.
    So it is not a surprise that 13 states and the District of 
Columbia, states run by both Democratic and Republican 
Governors, have adopted California's more stringent emission 
standards in an effort to protect their residents' health. It 
is only a surprise that more states haven't joined them.
    So, Mayor Liccardo, as the mayor of San Jose, is air 
pollution a problem for your city?
    Mr. Liccardo. Absolutely, and we know it is a problem when 
we see much higher rates of asthma in low-income communities in 
the eastern part of my city, where we know there are 
neighborhoods built closer to freeways. We know it is directly 
resulting from transportation, particularly automobiles. And 
despite all of the progress we have made, we know we have much, 
much longer, farther to go to prevent premature deaths and 
unnecessary cases of asthma, as we are seeing, particularly in 
low-income children.
    Ms. Tlaib. Mayor, talk a little bit about how you have been 
able to appeal to some of your Republican colleagues to work on 
this issue.
    Mr. Liccardo. Well, in California, the geographic alignment 
of partisanship is such, as you probably know, that much of the 
Republican base lives in the Central Valley, where some of the 
worst air in the country is. So they get it. They get it 
because their residents breathe it every day, and they 
understand the imperative for the health and safety of their 
own residents.
    Ms. Tlaib. You know, and I want to thank--I mean, both you, 
Mayor, as well as Dr. Wimberger. It should come as no surprise 
that the subcommittee--to the subcommittee that if we don't 
work together to tackle these issues, the only real winners 
here are the large corporations such as Marathon Petroleum in 
my district. The real losers are the families I represent in 
the communities.
    I go into these classrooms and, you know, the second-and 
third-grade classrooms, to read, you know, Grace for President, 
and at the end I try to explain what my job is. Before I begin 
I just ask, ``How many of you all have asthma and have a hard 
time breathing?'' and a third of the class will raise their 
hand. I tell them my job is to protect your air so that you can 
breathe. The kids are like, eyes wide open. I said, ``Sometimes 
it is really hard, right?'' and they said, ``Yes.''
    I tell them that, you know, we can probably get in there 
and try to clean the water, and provide clean water, but we 
can't do that with air. And these second-and third-graders, 
sometimes I wish they could be in this room and make these 
decisions, because, you know, they know what is right and they 
know--they don't have any kind of political strategy behind it. 
They just know it is the right thing to do.
    I want to really emphasize that, you know, oil refineries 
will be one of the greatest sources of pollution as a result of 
these car efficiency rollbacks. One of the things that we 
noticed in the last--just yesterday, in my district, air 
monitoring was deployed in Detroit neighborhoods near a 
Marathon refinery after a fire occurred overnight.
    This is, literally, the third time this year that Marathon 
has an incident that has raised alarms in the community, and 
these are toxins that go, right? We have already breathed them 
in. And, interesting enough, there is not any kind of 
enforcement. They have 21 days to kind of address it, but we 
have already breathed it in. So there is not an accountability 
at all to prevent my folks from breathing in dirty air. There 
are families in my district that have respiratory issues and 
high rates of asthma, and then even cancer, where, in their 
family, they have never had cancer in their families.
    And I will always say this, and I will continue to say 
this. If people really want to see the real-life impacts of 
regressive environmental standards, if they really want to see 
real-life results of what doing nothing on climate change looks 
like, they look no further than my district. We are front-line 
communities of what doing nothing looks like. It is so awful 
that when I was a little girl--and Chairman knows this; he came 
to my district--I used to think that smell was normal. I used 
to think the hydrogen sulfide is normal. In Wayne County, the 
community I represent, hasn't met sulfur dioxide standards in 
the last 10 years.
    It is really, for us, this sense of urgency. So I want to 
really commend the chairman for bringing this forward, and I 
hopefully will continue to work with him in trying to address 
this important issue. Thank you.
    Mr. Rouda. Thank you. The chair now recognizes 
Representative Gibbs for five minutes of questioning.
    Mr. Gibbs. Thank you, Chairman. I guess sometimes I think 
we co-mingle this. We are talking about climate change and we 
are talking about asthma and particulate matter, and I didn't 
know carbon caused asthma. I mean, maybe it does and I don't 
know that. But I would say in the Central Valley you get that 
inversion thing going on, and if we could get more cars 
converted to CNG and fuel cells and, you know, whatever, I am 
all for that research and I think economics will drive that.
    So, Dr. Lewis, do you believe that, you know, that 
consumers and the economics--if the economics works that is the 
best way to go, or should government mandate everything?
    Mr. Lewis. No. I definitely think that consumers should be 
in the driver's seat when it comes to the evolution of the 
automotive industry. And I have often been puzzled by the 
enthusiasm for fuel economy standards and mandates, because the 
same people who advocate those policies are people who say that 
this is--these are the kinds of cars that people really want. 
And just being a consumer myself, I know that I don't like pain 
at the pump any more than anyone else does.
    So fuel economy standards actually imply that consumers 
really don't want--or really do want pain at the pump, or 
really are not eager to get away from it, and also that 
automobile manufacturers are not profit-seeking businesses that 
want to get rich by serving the needs of consumers.
    So there is--I think there is a presumption here that many 
consumers really don't know what is good for them and, 
consequently, the market signals that we would expect are not 
getting through to automakers, and that is why automakers have 
to be controlled for the benefit of consumers who don't know 
what is good for them. Sometimes this is made based on a 
calculation of the up-front cost of a very fuel-efficient 
vehicle versus the reduction in fuel expenditures down the 
line.
    But I think, in part, there is a confusion here, that you 
are actually looking at a kind of two-dimensional consumer who 
only has two thing to weigh and balance--the up-front cost 
versus the later operating expenses--whereas, in fact, every 
purchasing decision we make, or every expenditure we make, we 
tradeoff, to some extent, in some way, in our minds, against 
every other possible use of the same money. Do we want to spend 
more money on this car rather than that, or should we use the 
money to help fund Junior's college education, or little 
Sarah's music lessons? Or should we use that extra couple of 
thousand dollars to update our office business equipment at 
home?
    So when people say consumers undervalue fuel economy, in a 
way they are saying they are overvaluing music lessons, they 
are overvaluing business success from the home office, and so 
on. So I think that is--I have never really seen a really good 
exposition of this.
    Mr. Gibbs. So when we have mandated fuel standards, that 
increase quite a bit, is that--is the consumer more likely to 
stick with the old car and not maybe upgrade?
    Mr. Lewis. Well, sure. In fact, I drive a 2001 Honda, you 
know, and I would love to buy a new car, because it would cut 
my fuel expenses considerably, but I can't afford one. And, in 
fact, there was a study recently that was flagged by the SAFE 
Rule that shows that the median-income household can afford new 
cars which, on average, are going for $36,000, in only one 
place--metropolitan Washington, DC.--in only one city. For some 
reason I don't make the cut. I wish I did. But I know that even 
if I got a car that met the 2017 standards, I would be way 
ahead, in terms of safety, in terms of fuel expenditures.
    And so the SAFE Rule is simply saying, look, let's back off 
these mandates that are raising the cost of new cars so much 
that middle-income households can't afford them, and people 
will actually benefit. There will be--in some cases less is 
really more, you know. If we don't push the fuel economy 
standards so high, so fast, people will actually change 
vehicles to a more fuel-efficient vehicle more rapidly.
    And if I could just make one comment about asthma and so 
on--oh, I am sorry that Congressman Tlaib is gone, but, you 
know, that was--the 10 years that she mentioned with no 
enforcement actions really broadly overlaps the Obama 
Administration. I don't think that is something that you can 
blame on the SAFE Rule.
    Mr. Rouda. The time has expired. Thank you very much. The 
chair now recognizes myself for five minutes of questioning.
    Mayor Liccardo, are you mad, are you angry, frustrated, 
disappointed in the Federal Government? Fifty years this waiver 
has been in place and only now the Trump Administration, with 
Republican supporters, including those here in this committee, 
supporting that action. What is that going to mean for the 
health of your constituents, the mothers and the fathers and 
the children and future generations? What does this rollback 
mean to you?
    Mr. Liccardo. With the science, we can predict the number 
of premature deaths caused by excessive emissions and 
particulate matter. And yes, absolutely, the CARB standards, 
under the low-emission vehicle program, absolutely regulate 
particular emissions, not just carbon. Absolutely regulate 
evaporative emissions--those are gas vapors escaping from the 
fuel tank--not just carbon, and those have real health effects 
today, regardless of what we might think about carbon and its 
impacts on climate change and our planet in the future.
    So as I, neighborhood after neighborhood, experience 
children who simply cannot engage in daily activities because 
of asthma, as I see premature deaths, particularly in low-
income communities, caused by this kind of air, it absolutely 
makes me furious. And I agree entirely with the opinion of the 
ranking member that we need predictability and regulation. I 
agree wholeheartedly. We have had predictability for 50 years.
    Mr. Rouda. And that is changing.
    Mr. Liccardo. And this Administration is overturning that.
    Mr. Rouda. And this is not unique to San Jose, is it, Dr. 
Wimberger? This would affect every city in the United States, 
every resident in the United States, and not just the United 
States. Beyond as well, correct?
    Ms. Wimberger. Yes, I wholeheartedly agree. I think it is 
important to note that in the past 50 years there have been 
hundreds of waivers that have been approved by EPA for 
California, ranging on a variety of topics from catalytic 
converters to check engine lights to greenhouse gas emissions 
standards. This revoking of the waiver would be unprecedented. 
It has never happened before. There is not language in the 
Clean Air Act that specifies how it could be done.
    And it really would stymie innovation that we desperately 
need. Even with the California standards, we know that we need 
to do more to get within sniffing distance of the commitments 
that we made under the Paris agreement, and to really embrace 
and to achieve the ozone standards that we desperately need to 
in California, where, unfortunately, we do still have millions 
of Americans that live in non-attainment and extreme non-
attainment areas.
    So this would really push back innovation. It would take 
the United States off of the playing field and out of the 
driver's seat in a world market that is skewing electric. We 
are seeing that is the way that the global trends are running. 
Volkswagen just released a presale of their new ID.3 vehicle. 
It sold out. It is under 30,000 euros. It is not in the U.S. 
market. They are looking elsewhere for their market because 
that is where the demand is going in the absence of Federal 
leadership in the U.S.
    Mr. Rouda. I believe in smart capitalism and good 
government, and together we can move these things forward. But 
we have heard a bit of a narrative here that somehow keeping 
the 2020 standards is beneficial long-term. If you use that 
argument to its fullest, couldn't you also argue that rolling 
back even further would actually stimulate the economy more? Do 
you believe that?
    Ms. Wimberger. No. I think there's an important point of 
why we need fuel efficiency standards or why we have vehicle 
emissions regulations to start. It is because we haven't been 
pricing pollution correctly. And there is a market failure that 
we haven't really internalized the cost of not taking action, 
the cost of these increased asthma cases, the cost of the--the 
social cost of carbon and seeing environmental degradation 
related to global warming and increases in temperature. Those 
are facts that we have not accounted for in the overall 
pricing.
    So to completely ignore that would be to go back and would 
be to completely erode any progress that we have seen, both on 
the air quality front and on the mitigation of climate change. 
It is not moving forward. It would move us completely backward.
    Mr. Rouda. Thank you. Dr. Bento, you haven't really had a 
chance to answer many questions here but I know you have heard 
a lot of testimony and discussions and questions. The mic is 
yours, to weigh in with any thoughts you have after what you 
have heard so far.
    Mr. Bento. Well, I think I will have to completely disagree 
with many of the statements of Dr. Lewis, not surprisingly, 
because I think for all of us to understand, and building a 
little bit on the point that Dr. Wimberger just made, every 
morning when we make our driving decisions we make them based 
on our private costs--the fuel costs, the parking, et cetera. 
What we don't realize is that through the process of driving we 
generate emissions, and those emissions generate costs to our 
communities, and particularly the most vulnerable communities, 
the communities that live close to freeways.
    And so it is not surprising that those that argue that the 
SAFE Rule brings benefit, the only way you can bring benefits 
to the SAFE Rule is if you don't value the benefits that CAFE 
standards generate in the first place. For example, if you 
don't believe that greenhouse gas emissions should be valued at 
the social cost of carbon, as has been advocated by the 
international community, then, of course, you have no reason to 
regulate greenhouse gas emissions. The private markets would 
work perfectly.
    If you believe that driving would not farther bring 
counties out of attainment, as it is the case in Los Angeles, 
for example, where we have been permanently out of attainment 
with the ozone standards, and if you don't value the health 
benefits of bringing those counties into attainment, then, of 
course, you have no reasons to put in a standard.
    My final point relates to also something else that was 
brought up earlier, which is fundamentally incorrect, which is 
this idea that the standards are aggressively raising the 
prices of new vehicles. One needs to understand the following: 
the vast majority of the increases in the prices of new 
vehicles that we have seen have nothing to do with the 
standards themselves. They are actually a result of the fact 
that consumers demand more and more extras that have to do with 
the comfort of the car.
    In our analysis, for example, we noticed that the standard 
would typically, by 2025, will raise the price of a new vehicle 
by about $1,100. In the grand scheme of things, this is 
actually not a very high value. Now, this idea that by raising 
the prices of new cars we are going to delay the adoption of 
new cars and pushing people into used cars is also incorrect, 
because if the prices of new cars go up, as individuals 
substitute toward used cars, well, guess what? The prices of 
used cars go up as well. This is actually a fundamental flaw in 
the SAFE analysis. If the prices of those news cars and used 
cars were to go up, the overall fleet shrinks, and actually 
there is safety gains that you miss when you actually roll back 
the standard.
    So, in sum, I make the point that I have made in the 
Science paper, and that I conclude with my remarks earlier, 
which is as far as I can tell there is really no economic 
reason, no environmental gain, no greenhouse gas emission 
savings from the rollback. Thank you.
    Mr. Rouda. Great. Thank you. The chair now recognizes Mr. 
Comer for five minutes.
    Mr. Comer. Dr. Lewis, do you believe the proposed SAFE 
Vehicles Rule is a step in the right direction for consumers of 
new and used vehicles?
    Mr. Lewis. Yes, I do, and actually to address something Mr. 
Rouda said, in our comment letter on the SAFE Rule we actually 
said, hey, we ran your software, Department of Transportation, 
and we found that the benefits increase if we were to freeze 
the standards at 2018, and roll them back to 2017. Why didn't 
you consider that? You should have considered that, at least 
considered it and invited comment on it.
    And so--but, nonetheless, we do see it as a step in the 
right direction, in terms of setting the standards. We think it 
is a gigantic step in the right direction in terms of restoring 
the Constitution and the supremacy clause, which gives Congress 
the power to preempt state laws or regulations, which they have 
done. And that is why this waiver, overturning this waiver, is 
different than any other that has come before, because there 
has never been, other than these greenhouse gas emissions 
standards in California, or the ZEV mandate, there has never 
been a California emission standard that directly and 
substantially regulates fuel economy.
    So there is very compelling legal reason to do this, which 
itself--I mean, unless someone were to find that the Energy 
Policy and Conservation Act, which is the Nation's foundational 
fuel economy statute, is unconstitutional, then, you know, if 
we're going to be a nation of laws this is what we need to do.
    Mr. Comer. Can you explain to us why the market does a 
better job meeting consumers' needs than a government mandate?
    Mr. Lewis. Well, look at China, which is often hailed as 
this, you know, great model for us to somehow emulate. Just 
this year, they decided they finally have to cut their electric 
vehicle subsidies. They cut them by 65 percent. And the result 
was that the sales of electric vehicles in China plummeted. And 
so now they are saying, well, I guess we will just have to 
mandate, and I think it is 3 to 4 percent of the market every 
year, the automakers would have to sell those--that segment as 
electric vehicles. But my point, again, is that if people 
really want these vehicles then they will pay for them.
    And there are alternatives, also, to mandates. I mean, the 
SAFE Rule does not deprive California of the wherewithal or 
means of promoting electric vehicles if California thinks that 
that is really a great thing to do. I mean, California already 
offers very generous tax credits for these vehicles. They could 
do the same thing--they could expand those. They could--I 
believe they also have tax credits for charging stations. They 
could have direct investments in them. That would actually be 
preferable, from CEI's point of view, because then the costs 
would be visible, and then you could actually have voters 
decide whether we like these laws or not.
    Mr. Comer. I agree. Dr. Lewis, you mentioned fuel economy. 
Do you agree that fuel economy should be regulated by uniform 
and consistent Federal standards?
    Mr. Lewis. Yes. If you are going to have them at all, they 
should be--there should be one program that is administered 
nationwide. Ideally it would be by one agency. In my ideal 
world--well, it is sort of ideal--in my ideal world there would 
simply be a free market to sort out, you know, how many cars of 
what fuel economy rating would be produced. But if you were 
going to have fuel economy standards at all, ideally I think 
you would have NHTSA, the Department of Transportation, setting 
the fuel economy standards, and you would have EPA setting the 
vehicle air conditioner standards, which have greenhouse gas 
emissions but that are not related to fuel economy.
    Mr. Comer. Last question. Do you agree that California's 
waiver makes it impossible to achieve uniform standards?
    Mr. Lewis. I don't think it is impossible. What it does is 
it creates a permanent uncertainty and unpredictability. I 
think the truth here is completely the opposite of the usual 
narrative. I mean, it is true that what Trump is doing is 
disruptive. He is a disrupter. But that is really, you know, 
what you need to do always, for any kind of fundamental policy 
change.
    But ever since California was given a place at the seat of 
power in making fuel economy, there has been--the so-called one 
vehicle program is actually something quite different. It is an 
uneasy truce that is wired to fall apart whenever California 
doesn't get its way. And we heard earlier a recitation of all 
the actions that California has taken to sue the 
Administration. This kind of head-butting is inevitable when 
you have two independent sovereigns co-determining a single 
policy.
    Mr. Rouda. Thank you. Time has expired. The chair now 
recognizes myself for additional questioning.
    Dr. Wimberger, the California standard, again, is adopted 
by 13 other states and the District of Columbia -OMm00*and 
approximately one-third of the United States population follows 
those standards. I know you talked a lot about if we rolled 
back the standards what the impact would be. What would be the 
impact, if you can speak to this, and perhaps you, as well, Dr. 
Bento, what would the impact be if the rest of the United 
States actually followed the standards being adopted by one-
third of the country already?
    Ms. Wimberger. Well, I think any economist would argue that 
you do want to have one standard. That is more efficient and it 
is better for certainty. It is better for customers and it is 
better for the automakers. I would just argue that it should be 
the more stringent standard, given the pace of where we need to 
be in terms of our climate goals and our air quality needs in 
the United States.
    Mr. Rouda. And just the back of the napkin, you both cited 
many statistics as to what the impact would be with the 
rollback, and again, if that is one-third I think we can assume 
that the impact, if the rest of the country assumed these 
standard, would be triple what the rollback would be.
    Ms. Wimberger. Well, and I should point out all the numbers 
that I quoted were relative to assuming that the Obama-era 
administration fuel economy standards were in place. So the 
differential would be--so we would see--if the California 
waiver were revoked and we flatlined at 2020 levels, then we 
are looking at a gigaton of additional emissions between 2020 
and 2035.
    Mr. Rouda. But again, back of the napkin, you would 
eliminate two gigatons of----
    Ms. Wimberger. Yes.
    Mr. Rouda [continuing]. Okay. Perfect. Yes, Dr. Bento.
    Mr. Bento. That is correct, and also, again, echoing Dr. 
Wimberger, I want to mention that, indeed, in an ideal world we 
should have a single standard. But it was mentioned here 
several times before, it seems that the rest of the world is 
moving toward electrification of the fleet. We have been seeing 
much more aggressive standards coming out of The European Union 
and China. And, therefore, it seems to me that rolling back 
effectively puts the factor of penalty on the automakers that 
have taken leadership in innovation. And this is because many 
of those automakers have accumulated credits that they would 
use to meet more stringent standards, say, as we approach 2025.
    And so when you roll back, effectively you bring the value 
of those credits down to zero, the fact you are penalizing 
them. I think you penalize them even farther because as 
preferences of individuals continue to change and move toward 
electric vehicles, what you will be doing will be reducing the 
market size of U.S. domestic manufacturers.
    Mr. Rouda. And it is also fair to state, when we talk about 
smart capitalism and allowing market forces to help dictate the 
outcomes here, there are billions of dollars of incentives 
provided to the fossil fuel industry that is not being 
calculated into the cost here.
    Mr. Bento. That is exactly right. So what I pointed to 
earlier is that for us to get the benefit costs correct we need 
to believe that there are benefits of regulation. And the 
benefits exist because many of the actions of individuals or 
oil companies generate external costs. Historically, we have de 
facto subsidized oil industry by not pricing pollution 
correctly, by not pricing greenhouse gas emissions correctly.
    Mr. Rouda. But again, there are really two issues there. 
There is, one, the incentives to actually produce, which is not 
being calculated in, and second, the societal cost of the 
pollution is also not being factored in. Correct?
    Mr. Bento. That is absolutely correct.
    Mr. Rouda. Great. Well, thank you. I appreciate those 
followup comments.
    Without objection, the following items will be inserted 
into the hearing record: The American Lung Association State of 
the Air Report; the June 6 letter from the auto companies to 
President Trump; the Science article regarding the flawed 
analysis of fuel economy standards; the EPA report, 
``Greenhouse Gas Emission Standards''; and the letter from 
Congressmen Costa, Cox, and Harder to Administrator Wheeler and 
Secretary Chao, urging the agencies to rescind the SAFE Vehicle 
Rule.
    Mr. Rouda. I would like to thank again our witnesses for 
testifying here today. Without objection, all members will have 
five legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to you for your response. I ask that if you do 
receive such a request that you respond as promptly as you are 
able.
    And with that, this hearing is adjourned. Thank you.
    [Whereupon, at 12:54 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
